<html>
<title> - [H.A.S.C. No. 115-8]CYBER WARFARE IN THE 21ST CENTURY: THREATS, CHALLENGES, AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                             

                          [H.A.S.C. No. 115-8]
 
                   CYBER WARFARE IN THE 21ST CENTURY:

                 THREATS, CHALLENGES, AND OPPORTUNITIES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 1, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Healey, Jason, Nonresident Senior Fellow, Cyber Statecraft 
  Initiative, Atlantic Council...................................     6
Libicki, Martin C., Professor, U.S. Naval Academy, and Adjunct 
  Management Scientist, RAND Corporation.........................     5
Singer, Peter, Strategist and Senior Fellow, New America 
  Foundation.....................................................     3

                                APPENDIX

Prepared Statements:

    Healey, Jason................................................    71
    Libicki, Martin C............................................    60
    Singer, Peter................................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    85
    Ms. Hanabusa.................................................    88
    Ms. Rosen....................................................    89
      
      
      CYBER WARFARE IN THE 21ST CENTURY: THREATS, CHALLENGES, AND 
                             OPPORTUNITIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 1, 2017.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee meets today to explore ``Cyber Warfare in the 21st 
Century: Threats, Challenges, and Opportunities.'' Needless to 
say, it is a big complex topic that is at the heart of much of 
American national security today and will be even more so in 
the future.
    One of those internet quotes attributed to Albert Einstein 
says: Given one hour to save the planet, I would spend 55 
minutes understanding the problem and 5 minutes resolving it.
    Well, whether Einstein really said something like that or 
not, I think the point rings true that much of our challenge in 
cyber is understanding the problem. As we have seen in recent 
years, cyber is being used by both nation-states and nonstate 
actors in ways that challenge our traditional notions of what 
is war. It is being used to destroy, to steal, and to 
influence.
    Cyber is a domain of warfare in itself, but its 
technologies also undergird most all of our defense efforts. It 
helps make us the strongest military in the world, and it also 
presents a vulnerability, which adversaries are looking to 
exploit.
    And what is true for our military is also true for our 
society. Those technologies offer great opportunity but are 
also a vulnerability that must be defended. And when it comes 
to things that must be defended, we often turn to the United 
States military.
    I am very grateful to all the members who came back to 
Washington early this week to spend our yearly retreat at Fort 
Meade focusing on this issue. Our witnesses today will also 
help us advance our thinking and hopefully help lead us to find 
the right questions so that we can work together to find the 
right answers.
    I would yield to the ranking member for any comments he 
would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate you 
holding this hearing on this very important topic, and it is 
one that I guess we are probably going to spend more than 55 
minutes trying to figure out the problem, unfortunately. It is 
very complicated. You know, the first thing we have to figure 
out is how, you know, best and better to protect our networks, 
both within government and those private sector groups that we 
come into contact with the government. We have that problem on 
the Armed Services Committee with a lot of the defense 
contractors that have sensitive information within their cyber 
domain that we have to figure out how to protect.
    And we still don't really have a comprehensive strategy for 
how to do that. That is part of the problem. And the other part 
is, as cyber is increasingly used for active warfare, what is 
our policy on that? If we are attacked through cyber, what is 
an appropriate response?
    We saw that with the Russian attacks on the DNC [Democratic 
National Committee]. You know, the President responded. It took 
a long time because we really don't have a set policy on what 
is a proportional and appropriate response to a given cyber 
attack, which we need to figure out.
    And then, lastly, how do we use it as an offensive weapon? 
Certainly our enemies are using it. ISIS [Islamic State of Iraq 
and Syria] is using it very effectively to spread their message 
and recruit. You know, and we have seen Russia use it in a 
variety of different formats. We have suspicions of others 
using it as well.
    What should we do, from an offensive standpoint, to use 
cyber to cause problems for our enemies and advance our 
interests? So those are the three questions I am most 
interested in learning more about.
    I apologize; I actually have to leave early from this 
hearing. But certainly I will study the remarks of our 
witnesses, and I know the panel will benefit from the 
discussion.
    I thank the chairman for holding this hearing, and I yield 
back.
    The Chairman. I thank the gentleman.
    Again, let me thank each of our witnesses for taking the 
time to be here.
    We have Dr. Peter Singer, strategist and senior fellow at 
New America Foundation, among others things, author of ``Wired 
for War'' and ``Ghost Fleet''; Dr. Martin Libicki, professor at 
the U.S. Naval Academy and adjunct management scientist at the 
RAND Corporation; and Mr. Jay Healey, nonresident senior fellow 
for the Cyber Statecraft Initiative at the Atlantic Council.
    Thank you all for being here. Without objection, your full 
written statement will be made part of the record, and we would 
be pleased to hear any oral comments you would like to make at 
this point.
    Dr. Singer, we will start with you.

 STATEMENT OF PETER SINGER, STRATEGIST AND SENIOR FELLOW, NEW 
                       AMERICA FOUNDATION

    Dr. Singer. Chairman Thornberry and Ranking Member Smith, 
members of the committee, it is an honor to speak at this 
important discussion today designed to reboot the cybersecurity 
conversation. It is all the more needed as the United States 
was recently the victim of what was arguably the most important 
cyber attack campaign in history. Hackers reported as working 
on behalf of the Russian Government have attacked a wide 
variety of American citizens and institutions. They include 
political organizations of both parties, the Republican 
National Committee and the Democratic National Committee, as 
well as prominent Democrat and Republican leaders, as well as 
civil society groups like various American universities and 
academic research programs.
    These attacks started years back, but it continued after 
the 2016 election. They have been reported as hitting clearly 
government sites, like the Pentagon's email system, as well as 
clearly private networks, like U.S. banks. They have also been 
reported as targeting a wide variety of American allies ranging 
from government, military, and civilian targets, and states 
that range from Norway to the United Kingdom, as well as now 
trying to influence upcoming elections in Germany, France, and 
the Netherlands.
    While Vladimir Putin has denied the existence of this 
campaign, its activities have been identified by groups that 
include all the different agencies of the U.S. intelligence 
community, the FBI [Federal Bureau of Investigation], and in 
statements by both the prior and present U.S. President. This 
campaign has also been well-established by the marketplace. 
Five different well-regarded cybersecurity firms have 
identified it.
    This campaign is not a cyber war of the kind that is often 
envisioned with power grids going down and fiery cyber Pearl 
Harbors. Instead, it is a competition more akin to the Cold 
War's predigital battles that crossed influence operations with 
espionage and subversion.
    However, while Russia's attacks are the most notable events 
in cybersecurity in the last year, unlike in the Cold War, our 
strategy must recognize they are only one aspect of a larger 
threat landscape. In cyberspace, the malevolent actors 
presently engaged in attacks on U.S. persons and institutions 
range from criminals who are stealing personal information or 
holding ransom valuable corporate data--although here too there 
is a prominent Russian link with reportedly 75 percent of 
ransomware coming from Russian-speaking parts of the online 
criminal underground--to governments, like China, which have 
been accused of large-scale intellectual property theft, as 
well as breaking into government databases like the OPM [Office 
of Personnel Management] in the cyber version of traditional 
espionage.
    And, finally, our strategy must face that all of this 
ongoing activity must account for the risk of an actual cyber 
war, the activities that would occur in outright conflict, 
including cyber attacks to cause physical damage.
    So what can be done to defend America in this challenging 
realm? In my written testimony, I submitted a series of 30 
actions that can be taken by the Congress to raise 
cybersecurity. Notably, in reflecting the nature of this 
nonpartisan realm, the overall strategy in each of the proposed 
30 measures are designed to be amenable to and implementable by 
the leaders of both parties.
    I have submitted this strategy for the record, which I hope 
will be a useful resource to you and your staff in your 
important work ahead. Rather than restating in detail, I would 
note that it involves three core elements.
    First, activities that can be taken to restore deterrence, 
from making key new investments in training, cutting-edge 
technology like artificial intelligence [AI], and 
organizational changes in our Defense Department approach, 
including disentangling CYBERCOM [Cyber Command] and the NSA 
[National Security Agency], to utilizing all our tools of power 
to better influence current and future adversary thinking in 
the wake of Russia's attack, most especially by turning 
sanctions into law and strengthening them.
    Second, actions to raise resilience, our ability to shake 
off attacks and thus create what is known as deterrence by 
denial, where we are not only better protected but adversaries 
gain less and are thus less incentivized to attack. 
Importantly, a strategic effort to raise U.S. resilience would 
be a useful investment against any type of attack or attacker.
    The steps that can be taken by Congress here range from 
measures to better utilize Pentagon buying power to oversight 
on the implementation of industry best practices in the 
government. They also include innovative means to deal with our 
cybersecurity human resource challenge, from supporting better 
pipelines into government and the military and better 
organizing the wealth of talent that lies outside of government 
in the military and Reserves, such as through the creation of a 
program akin to Estonia's world-respected approaches to 
societal resilience.
    The final tract looks at the broader challenge we face in a 
world of social media and online influence operations. Here, 
too, there are a range of suggested congressional actions, 
including enhancing cybersecurity information sharing among 
likely U.S. political targets, raising the ability of the U.S. 
military to better utilize social media and integrate it into 
our own training environments, and supporting the recreation of 
the Active Measures Working Group, an interagency Cold War 
program designed to debunk foreign propaganda and limit the 
impact of lies spread by what the Soviets aptly called ``useful 
idiots.''
    In conclusion, we must recognize that, for as long as we 
use the internet, adversaries like Putin's Russia and many 
others will seek to exploit this technology and our dependence 
on it in realms that range from politics to business to warfare 
itself. In response, the United States can build a new set of 
approaches to deliver true cybersecurity, aiming to better 
protect ourselves while reshaping adversary attitudes and 
options, or we can continue to be a victim. Thank you.
    [The prepared statement of Dr. Singer can be found in the 
Appendix on page 47.]
    The Chairman. Thank you. Dr. Libicki.

STATEMENT OF MARTIN C. LIBICKI, PROFESSOR, U.S. NAVAL ACADEMY, 
       AND ADJUNCT MANAGEMENT SCIENTIST, RAND CORPORATION

    Dr. Libicki. Good morning, Chairman Thornberry, Ranking 
Member Smith, and the distinguished members of the committee. 
My name is Martin Libicki, the Maryellen and Richard Keyser 
Chair of Cybersecurity Studies at the Naval Academy and an 
adjunct at RAND. The views expressed are my own.
    Two years ago, Admiral Rogers asked Congress to support an 
increase in his ability to carry out cyber attacks so that the 
United States could deter cyber attacks on it, but would 
strength alone suffice? Our deterrence capability has at least 
four prerequisites.
    First, we must be able to attribute cyber attacks in order 
to punish the correct party and convince others that we are 
acting justifiably.
    Second, we must communicate our thresholds. What actions 
will lead to reprisals?
    Third, we need credibility so that others believe that 
punishment will in fact follow crossing such thresholds.
    Fourth, we need the capability to carry out reprisals.
    Of the four prerequisites, it is U.S. capability that is 
least in doubt. Any country credited with Stuxnet and the 
operations that Snowden leaked has demonstrated an impressive 
capability. It is the other three prerequisites that need 
attention.
    Attribution, to be fair, has improved considerably over the 
past 10 years, but the same cannot always be said about the 
U.S. ability or willingness to prove that its attribution is 
correct. After the Sony attack, the FBI's public statement 
devoted just 140 words to justifying its attribution, and the 
public case that Russia carried out the DNC hack is even more 
problematic.
    Credibility remains an issue. Although the United States 
did retaliate against North Korea for the Sony attack and 
Russia for the DNC hack, the reprisals that have been made 
public, mostly sanctions, were not the sort that would induce 
fear in others.
    That leaves the issue of thresholds, which gets the least 
attention. What cyber attacks merit cranking up the machinery 
of U.S. retaliation for and thereby potentially altering the 
U.S. relationship with another country, especially when cyber 
attacks can vary so much from a momentary network disruption to 
a major catastrophe? Not everything that we might call a cyber 
attack is actionable.
    By contrast, even the smallest nuclear weapon on U.S. soil 
was obviously actionable. Finding a tractable threshold is not 
a problem easily solved. So let's consider some candidates.
    Should something be actionable if it violates the Computer 
Fraud and Abuse Act? Well, there are three problems. First, 
using a national law as an international red line sets a 
precedent easily abused by countries that, for instance, 
criminalize free speech.
    Second, this act is violated literally on millions of 
occasions, pretty much every time a computer is turned into a 
zombie.
    Third, such a law makes cyber espionage an actionable act, 
but this is something that the United States carries out all 
the time.
    Well, is something actionable, as one Assistant Secretary 
of Defense argued, if it is among the top 2 percent of all 
attacks? Here the problem is that cyber attacks have no 
minimum. So it is very difficult to define the set and, thus, 
very difficult to define 2 percent of the set.
    Okay. Should everything that affects the U.S. critical 
infrastructure be actionable? Supposedly we know what is and is 
not part of the U.S. critical infrastructure. But then we have 
attacks that make us change our mind. For instance, a number of 
folks said the attack on Sony was an attack on the critical 
infrastructure, and after the attack on the DNC, we 
reconsidered the election--the voting machinery in this 
country, and we reclassified it as part of the critical 
infrastructure.
    Well, do the laws of armed conflict, or LOAC, provide a 
good dividing line? Well, unfortunately, LOAC kicks in only 
when something is broken or someone is hurt, and in cyberspace, 
damage has occurred twice and death not at all. An attack that 
bankrupts a firm, by contrast, would not be actionable by LOAC. 
Worse, LOAC fosters the notion that a cyber attack, like a 
physical attack, is unacceptable behavior for countries, while 
cyber espionage, like traditional espionage, is something 
countries do. But the United States does not accept all cyber 
espionage. It successfully pressed China to stop its economic 
cyber espionage.
    If the data taken from OPM had been sold into the black 
markets, the United States would doubtlessly have raised very 
strong objection to China, and the DNC hack was actually cyber 
espionage. If the Russians had taken what they took in-house 
rather than post it online, there likely would have been no 
U.S. response.
    My bottom line is this: deterrence introduces multiple 
issues that need far more careful attention than they have 
received to date. Being strong is necessary, but it is not 
sufficient, and until we have a firmer basis for setting 
thresholds, we may have to limit reprisals to obviously 
actionable attacks while using the less obvious ones as markers 
for what we would react to next time.
    I appreciate the opportunity to discuss this important 
topic, and I look forward to your questions.
    [The prepared statement of Dr. Libicki can be found in the 
Appendix on page 60.]
    The Chairman. Thank you.
    Mr. Healey.

  STATEMENT OF JASON HEALEY, NONRESIDENT SENIOR FELLOW, CYBER 
            STATECRAFT INITIATIVE, ATLANTIC COUNCIL

    Mr. Healey. Good morning, Chairman Thornberry, Ranking 
Member Smith, distinguished members of the committee. I am 
really humbled to be in front of you today. I will jump right 
to the heart of my comments on cyber conflict where several 
issues stand out.
    First, what isn't a problem? Attribution, as my colleagues 
have pointed out, is not nearly the challenge that it used to 
be, as analysts at private sector companies and the U.S. 
Government have made tremendous gains determining which nations 
are behind cyber attacks.
    Second, what is different in cyber compared to conventional 
conflict? I believe it is not hazy borders or operating at 
network speeds or the other things that you might have heard 
that is most different, but in fact the role of the private 
sector. America's cyber power is not at Fort Meade. No, the 
center of U.S. cyber power is instead in Silicon Valley, in 
Route 128 in Boston, at Redmond, Washington, and in all of your 
districts where Americans are creating and maintaining 
cyberspace and can bend it if they need to.
    Third, what didn't we see coming? In the wake of the 1991 
Gulf War, we in the military were eager to study information 
operations, including propaganda and influence, which are now 
some of our adversaries' primary weapons against us. Yet, in 
the time since, we have become so enamored of the cyber, we 
have forgotten critical lessons of information operations from 
that time.
    Fourth, what might we have most wrong? Simply, deterrence 
and coercion. Previous testimony to this House made it clear 
there was an electronic Pearl Harbor waiting to happen. Well, 
that was in June 1991. So we have been fretting about an 
electronic Pearl Harbor for 25 of the 75 years since the actual 
Pearl Harbor. Cyber deterrence above the threshold of death and 
destruction not just is working but works pretty much like 
traditional deterrence. Where deterrence is not working, of 
course, is in the gray area between peace and war, where all 
major cyber powers are enjoying a free-for-all.
    We should not kid ourselves. In that gray zone, the United 
States is throwing as well as taking punches, and deterrence 
works very differently if your adversary is certain they are 
striking back, not first. In fact, I believe cyber may be the 
most escalatory kind of conflict we have ever encountered. 
Because of this, any exercise in cyber deterrence must be 
thought of as an experiment. Some of our experiments will work; 
some won't. So we must be cautious, attentive to the evidence, 
and willing to learn.
    So my first recommendation is that a new set of cyber 
influence teams might quickly be trained and folded into the 
Cyber Mission Force at Fort Meade working alongside cyber and 
area studies experts there.
    Second, I continue to advocate splitting the leadership of 
NSA and Cyber Command. Imagine if the Commander of U.S. Pacific 
Command were the leading source of information on the China 
military threat, negotiated with U.S. companies dealing with 
China, ran the best funded China-oriented bureaucracies, was 
involved in intelligence operations and military planning 
against China, and could decide what information on China was 
classified or not. Sometimes two heads and two hats are more 
American than one.
    Third, the best use of government resources is to reinforce 
those doing the best work already. Our critical infrastructure 
companies are on the front lines and, together with major 
vendors and cybersecurity companies, have far more defensive 
capabilities than our military. Grants to the nonprofit 
associations that are knitting these operations together can 
give massive bang for the buck.
    Lastly, I would like to leave you with a question to 
consider asking others in testimony in the future: What do you 
believe will be the dominant form of cyber conflict in 10 
years? The Pentagon seems to have a healthy set of cyber 
requirements but not many views of what cyber conflict might be 
like as they do in the land, sea, air, or space.
    For example, I am sure the chief of staff of the Air Force 
can give you many reasons on why he sees future air conflict 
and why a long-range strike bomber is the answer to succeeding 
in many of those kinds of conflicts. What do we think the 
future of cyber conflict might be like that will justify the 
requirements that the Pentagon is asking for?
    In closing, I would like to mention that on 16 and 17 
March, 48 student teams, including from many of your districts 
or your alma mater, including the Air Force Academy, Brown, and 
the Universities of South Alabama and Maryland, College Park, 
will compete in the Cyber 9/12 Student Challenge. This 
competition prepares students to tackle exactly the same sort 
of challenges about which my colleagues and I are testifying 
before you today. If you or your staff are available to 
observe, judge, or provide remarks, the student teams would 
greatly benefit. Thank you for your time.
    [The prepared statement of Mr. Healey can be found in the 
Appendix on page 71.]
    The Chairman. Thank you.
    As we notified all members, Mr. Smith and I agreed that, 
for the purpose of this hearing, we would start out by going in 
reverse seniority order for those members who were here at the 
time of the gavel and then go in order that members entered the 
room, like we usually do.
    I also want to remind members that this afternoon the 
Emerging Threats and Capabilities Subcommittee is holding a 
classified quarterly update on cyber operations to which all 
members of the committee are invited.
    And at this point, I would like to yield my 5 minutes to 
the chair of that subcommittee, Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    I have two questions. The first is broad. What aspects of 
the previous administration's cyber policy should we keep and 
what should we rethink? I will start with Mr. Healey and move 
down the line.
    Mr. Healey. Thank you very much, Chairwoman, Ms. Stefanik.
    The previous administration got a lot of runs across the 
plate, but they weren't really swinging for the fence. So they 
had a lot of small--they were playing small ball. And so there 
weren't that many things that really angered me that much about 
what they did.
    One that I think we should absolutely keep, because I think 
the private sector should be the supported command, not the 
supporting command, I am a big fan of the work that they had 
done on the vulnerabilities equities process. This is the 
process by which if the U.S. Government discovers 
vulnerabilities, especially in U.S. IT [information technology] 
products, that the default is to tell the vendors on that, and 
if they keep it, for example, at Fort Meade, that they have a 
risk-mitigation strategy so that, if it does become public, 
that they can respond most quickly. The work that they did on 
that was very important. That actually dates back to CNCI 
[Comprehensive National Cybersecurity Initiative] in the 
previous administration, but I think that is certainly worth 
keeping.
    To change: I certainly hope that the U.S. Government can do 
better on its own cybersecurity systems. It looks like the new 
administration might be doing better on this with more of a 
role for the Office of Management and Budget as well as more 
shared services, that is, more cloud. I also think we can do 
more within the Department of Defense [DOD] for accountability. 
My experience in the private sector, especially working for 
banks, was that they had much more control over what was added 
to their networks and who could do what than even the 
Department of Defense does, which was a surprise to me 
considering how much we think of command and control and 
leadership within the Department of Defense. Thank you.
    Ms. Stefanik. Thank you.
    Dr. Libicki.
    Dr. Libicki. I believe the administration made a lot of 
good investment in defensive, in defending networks, and I 
think that is a trend that should continue. Details, I suppose, 
we can discuss, but I think the general trend toward putting 
most of your eggs in the defensive basket is a good one.
    In the realm of what I would do different. If you are going 
to talk up an attack as something that is unacceptable, then 
you need better attribution, public attribution case, and you 
need to hit back more strongly. Conversely, if you are not 
prepared to hit back strongly and you are not prepared to make 
a good attribution case, maybe you shouldn't make so big a deal 
of the cyber attack.
    Ms. Stefanik. Dr. Singer.
    Dr. Singer. I echo what was just previously said and add a 
couple of things. Towards the end of the Obama administration, 
in the wake of the OPM breach, it put together a series of 
essentially best practices from the private sector that could 
be mined for implementation into government. I see those as a 
key oversight area for Congress and essentially seeing if they 
are being implemented or not. And, again, I think they are 
bipartisan in that they are pulling from the private sector.
    Similarly, in the very last weeks of the transition, there 
was a bipartisan commission of experts, cybersecurity experts, 
that issued a report of what could be done to aid government in 
this realm. It was lost in the little bit of the conversation. 
Here too, bipartisan recommendations, implementing those would 
be a good area.
    Finally, the administration created a cybersecurity human 
resources strategy. This space is not merely about zeros and 
ones. It is a people problem, and there are all sorts of areas 
there, and I would look to that and see, is this being 
implemented or not? It also points to, at least so far in the 
drafts of the Trump administration's executive orders, human 
resources hasn't been mentioned. So I would be focusing on 
that.
    In areas of what they can do, what they don't do, there is 
a wide variety of them that have been mentioned. Whether it is 
sanctions to--we have done well at pulling in the National 
Guard as a way of tapping broader societal resource, but that 
is only limited to what is already in the military. I would 
look to the Estonian model or, in essence, the cybersecurity 
version of the Civil Air Patrol as a way of pulling in broader 
civilian talent that isn't either able or willing to serve in 
the military or Guard and Reserves.
    Ms. Stefanik. Thank you, Dr. Singer.
    So my final more specific question: Mr. Healey, in your 
written testimony, you discuss how our adversaries are using 
cyber capabilities as part of a larger strategic and 
orchestrated influence operations, form of information warfare. 
The most recent examples are the North Korean hack of Sony, the 
Russia hack of the DNC, and even 2008, the Chinese hack of both 
the Obama and McCain campaigns.
    In addition to your suggestion to create cyber influence 
teams with our cyber forces, what more can we do to counter the 
strategic influence campaigns that are so successfully being 
waged by Russia, China, North Korea, and Iran?
    Mr. Healey. Such an important question. Thank you very 
much. I agree with Dr. Singer on returning to the Active 
Measures Working Group, which I think is an important step. I 
think we can start refunding some of those information 
operations projects that we had done in the 1990s, for example, 
in [Operation] Allied Force where we had done a lot against 
Slobodan Milosevic. There had been a lot done in the military 
professional universities, especially places like National 
Defense University and the doctrine centers where hopefully 
some of those people still reside and we might be able to build 
back some capability quickly.
    It also--we obviously need to do this whole-of-government 
because this clearly isn't a Department of Defense response. It 
has helped me to think about--you know, we have incidents of 
national significance to respond to terrorist attacks. We have 
cyber incidents of national significance, but neither of these 
fit here. It has helped me to think about an information 
incident of national significance and think, who would we bring 
to the table? What agencies would we bring to the table to 
respond to an information incident of national significance? I 
am not convinced that we should create such a concept because 
there is something that strikes me a bit un-American about how 
we might use that if there is information we didn't like, but 
it certainly helped me think about how we might improve our 
interagency response against such actions. Thank you.
    Ms. Stefanik. Thank you, Mr. Healey.
    I am over my time.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. Thank you, gentlemen, for being here and for 
your testimony as well as the Q&A [question and answer].
    I represent a district in central Florida that is home to 
the Nation's largest modeling, simulation, and training 
industry cluster, which includes a collaboration--which is a 
collaboration between the military, academia, and industry. The 
Army command there, known as PEO STRI [Program Executive Office 
Simulation, Training, and Instrumentation], has been tasked 
with the cyber training mission for Army.
    I was alarmed by a recent study that I saw that talked 
about the accelerating workforce gap for cybersecurity 
professionals. This survey projects that we will have a 
shortfall of 1.8 million cybersecurity professionals in the 
next 5 years. And to put that in some context, when you talk 
about workforce gaps in other industries, we are talking in the 
tens of thousands, but not in the millions. So I found this an 
astounding shortfall in its size and particularly in a critical 
area for both national security as well as economic stability.
    So I was wondering, you know, you have all talked a little 
bit about some of the initiatives, workforce initiatives, that 
could be implemented, but what specific partnerships between 
academia, government, and the private sector would help to 
build this talent pipeline in the future, and what role does 
Congress have in providing investments for and supporting such 
partnerships?
    Dr. Singer. There is a whole array of activities that can 
and, frankly, should be undertaken. As was mentioned, there was 
previously a human resources strategy. It is unclear whether 
that will be continued or not. I believe it should be in the 
new administration. If it is not, there should be a similar 
full-fledged version of it.
    Equally, there have been organizations created like, for 
example, the U.S. Cyber Corps, which is akin to a ROTC [Reserve 
Officer Training Corps] program, a scholarship program for 
drawing talent into government. It is unclear what the effect 
the Federal hiring freeze will have on that. Right now, you 
have students that are worried that they are not going to be 
able to meet their scholarship commitments by joining 
government because the positions won't be open to them.
    I would urge Congress and the administration to make clear 
that cybersecurity is an area that would not be included in 
that hiring freeze because, frankly, any labor savings that you 
get will be lost by one breach, one incident.
    Similarly, there is a whole series of areas to bring in. As 
was mentioned, the strength of the United States is in 
districts like yours and around, so ways of bringing that 
talent into government for short term. So the examples range 
from adding a cybersecurity element to the U.S. Digital Service 
to a program akin to what the Centers for Disease Control has 
for bringing in talent from the medical field.
    Finally, bug bounty programs, which are very cheap ways of 
incentivizing people outside of government to volunteer to help 
government. I would urge--the DOD is doing these on a pilot 
basis. This should be done at every single agency, and Congress 
can help support that and incentivize that.
    Dr. Libicki. I mean, there are a lot of programs that have 
been mentioned, could be mentioned, that could increase the 
supply of cybersecurity professionals, but if we are talking 
about the scholarship program, we are talking about hundreds 
and thousands of people as opposed to millions of folks. And I 
think thought needs to be given not only to how do you increase 
the supply but also how you reduce the demand. Let me give you 
an example.
    If you take a look at the Office of Personnel Management, 
there was a lot of sensitive information, particularly 
information that you gather as part of doing the security 
clearance, that was leaked to other countries as a result. 
Okay. Now, if you just took a cybersecurity perspective, you 
would say, well, how many people does OPM have to hire in order 
to make sure that their material doesn't leak?
    But there is another way of looking at it. Okay. Do we have 
to ask people those questions? Do we have to write down the 
answers? Do we have to put those--digitize the answers that 
they give? Do we have to make the answers available, and do we 
have to make the answers available online? And is there some 
way of finding out where the answers are going online in the 
circulation?
    Okay. None of those things that I describe need a 
cybersecurity professional. They need ways of understanding how 
information works. And I think, as a general proposition, there 
was a tendency to say: We want to compute the way we want to 
compute. We want no restrictions. This internet stuff is 
wonderful. We want as much as we can have. But it seems to give 
us cybersecurity problems. So let's go hire a bunch of 
cybersecurity folks and sort of spread some cybersecurity on 
the top.
    And if you can't get these folks or you are paying an arm 
and a leg to get these folks and it still doesn't work because 
the Russians are very, very talented and the Chinese are very 
talented, okay, then you might want to consider, how are we 
actually managing our information? And that leads you to a 
different place.
    The Chairman. If I could request each of you all, if you 
would talk directly into the microphone. Sometimes there is a 
noise outside that is making it hard to hear up here. So thank 
you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I have a somewhat related question. The Marine Corps 
Commandant, General Neller, recently stated that using tactical 
cyber needs to become routine like other technical arms of the 
service. So when the Arty [artillery] officer shows up or the 
naval gunfire officer shows up, he needs to be accompanied by a 
cyber liaison officer.
    My concern is that in terms of the cyber talent pool, I 
don't think a lot of them are enthusiastic about getting a high 
and tight and joining the Marine Corps. So I am drawn to your 
idea, Dr. Singer, about something akin to the Estonia Cyber 
Defense League, but I see a host of practical challenges to 
implementation, and I think we might have to rethink how we 
grant security clearances.
    Could you just talk a little bit more about that and how we 
might operationalize and implement such a proposal?
    Dr. Singer. So the approach that Estonia has is a little 
bit akin to our age-old the minutemen or, more appropriate 
today, the Civil Air Patrol. The Cyber Defense League there is, 
it takes people that have been security cleared. So they do go 
through a clearance process. They are volunteers. They are 
outside of government. Their talent ranges from people who are 
hackers to people who are bankers.
    So, for example, if you want to understand how to attack or 
defend a bank, you just don't need computer talent. You need to 
understand how the systems work. And they essentially volunteer 
to aid Estonia in everything from red teaming--so attacking 
voting systems before an election, define vulnerabilities 
before the bad guys do--to they help with emergency response. 
It is a little bit akin to the Civil Air Patrol, which gathers 
people who are interested in aviation, and it ranges from 
youngsters that are entering the field to people who just want 
to keep flying, but then they are on call for aviation-related 
accidents, training exercises, and, importantly, on call at the 
local, State, and Federal level.
    My point is, is that, often in this space, we very 
appropriately enough say, you know, look, we have got Active 
Duty, and National Guard has expanded and gotten really good at 
this, but then we stop and miss the fact that, as you put, 
there is a great deal of talent that will be forced to be 
outside of National Guard.
    I would also, real quickly, one other point I want to make 
is that, if we are looking at history, we often talk about the 
Pearl Harbor parallel, and what General Neller is pointing to 
is that there are other battles--Kasserine Pass--which were 
really ones that whether we won or lost was not based on our 
weapons but our failure to figure out how we command and 
controlled, how we organized, and that is what I would urge you 
to be pushing a little bit more on the military side with.
    Mr. Gallagher. And then, on that point, Mr. Healey, you 
seem to argue that the reports of a cyber Pearl Harbor have 
been greatly exaggerated, but I count myself among many 
Americans who received a notification from OPM after the hack, 
which some describe as a cyber Pearl Harbor. What is your 
assessment of the long-term damage caused by that hack?
    Mr. Healey. Certainly when I thought about my colleagues, 
my friends who in the future might be negotiating with China 
over some issue, and I can imagine their Chinese counterparties 
sitting down in front of them and having their complete SF-86 
and the rest of their information in front of them. And I 
imagine the chilling effect that would have on that negotiation 
and how America's diplomatic position is going to be 
significantly worse since then.
    But I also take the thought of a devastating attack that 
leaves thousands of Americans dead. I mean, that, for me, is--
it is what we have been thinking about, what we have been 
imagining that was going to be this catastrophic bolt from the 
blue, and so certainly that hasn't happened yet. And yet we 
still, to some degree, allow that to capture our imagination.
    So I think we need a little bit more curiosity about what 
future cyber conflicts might be like and how we respond to 
those. I think that would put us much better off to deal with 
the OPMs and to deal with the Russian hacking.
    Mr. Gallagher. And, finally, Dr. Libicki, among the many 
terrorist groups that we are fighting kinetically right now, 
who is the most sophisticated cyber actor?
    Dr. Libicki. I think you would have to say ISIS. But I 
think even--ISIS is really good at information operations and 
propaganda, okay, because in many ways, they say that terrorism 
is sort of the propaganda of the deed, and so they are 
integrated within a country--with an organization like ISIS. 
But in terms of actual cyber capability, there are many 
criminal groups that are better than all the terrorist groups.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I yield the rest of my time.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I represent a district in Maryland that is perhaps less 
than 8 miles from Fort Meade, which is home to, you know, 
several very important agencies and activities in the 
cyberspace, NSA, Cyber Command, and Defense Information Systems 
Agency, and we are home to a very large percentage of those 
high-and-tight cyber warriors. And I know that this committee, 
over the past several years, has looked at the organization and 
structure of the cyber force, Cyber Command, as a unified 
command. We are interested in the dual-hat arrangement between 
the Director of NSA and as Commander of CYBERCOM, and also we 
are interested in a strategy for incorporating the Guard and 
the Reserve.
    So my question is--and there are a lot of different 
activities involved in cyber warfare. At the operational level, 
do you have any thoughts and opinions on how best to support 
that combatant commander? We have got cyber mission teams that, 
my understanding, right now, pretty much operate from CONUS 
[continental United States], a lot at Fort Meade, some in 
Atlanta, and pushing those teams out much like the Special 
Operations Command does, and any other thoughts you have on 
sort of the operational tactical deployment of these assets.
    Mr. Healey. Thank you very much, and there are parts of 
this that remind me of the previous question. You know, the 
cyber forces, I think, for a very, very long time are going to 
be high-demand, low-density [HDLD] assets. You know, there is 
just not going to be enough of them, and in general, when we 
have got HDLD assets, we try to keep them in a centralized pool 
so that way--especially keeping them in a place where they can 
support multiple commands and multiple operations without 
having to necessarily to deploy to do them.
    I think it is going to be a long time before it is as easy 
to use cyber capabilities as it is to drop a JDAM [Joint Direct 
Attack Munition] or to send artillery rounds downrange. It is 
extremely complex, and when you have capabilities, you tend to 
want to use them sparingly and not in a tactical kind of 
situation because the adversary will just fix them.
    And so the kinds of things that I think have been happening 
within the Cyber Mission Force have been really excellent, and 
we hope to see more capabilities and spending in that area.
    Dr. Libicki. Briefly, I am not too sure I have an answer to 
your question, but I do have a sense of what it will depend on. 
First is we need to understand a lot better the efficacy of 
offensive cyber forces, and the second thing is that we have to 
understand their depleteability. There is a difference when you 
surprise somebody in cyberspace, when you pull off something 
that they weren't expecting, okay. The surprise element tends 
to deteriorate over time. It is not like an artillery round, 
which still has the same blast effect for the first as it does 
for the hundredth.
    So that we don't understand a lot, and for these next 5 to 
10 years, we are going to have to be playing around with a lot 
of alternative models until we do have a level of understanding 
that allows us to make good decisions.
    Dr. Singer. I think your mention of Special Operations 
Command is an appropriate one. I was actually down there 
literally yesterday, and it is my sense that that is the likely 
and I think ideal future evolution of what happens with Cyber 
Command where it is, as mentioned, it is global in its 
operation but also can focus down and help in specific commands 
on a theater level or the like. It also has its own culture, 
its own approaches to promotions, to different types of budget 
authorities to reflect kind of its unique role. That is my 
sense of where Cyber Command can and should evolve to.
    Part of that will, as was mentioned, I do think it is time 
for it to disentangle from the dual-hat leadership structure 
for both what Jay Healey mentioned, in terms of the 
intelligence operational side, to just, frankly, it is a human 
talent. No matter how good the person is, those two roles are 
incredibly important, and you are getting half their time. They 
are also very different. To make a sports parallel, it is like 
having, you know, the coach of the Wizards and the general 
manager of the Capitals. You know, you wouldn't do that.
    The final aspect that I would put in terms of--to aid this 
in solving a lot of this question is better integration of this 
into our muddy boots training environments, and when I say 
``this,'' I mean both offensive and defensive cyber 
capabilities as well as the social media side. Our training 
environment should reflect what the internet looks like now and 
how we can and our adversaries will use it.
    Mr. Brown. Thank you, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen. First, I just have a comment as we 
are talking about this cyber workforce. Although I agree with 
you, Dr. Libicki, about managing our information. There is 
going to be demand. These are going to be jobs that will be out 
there and growing. And I highlight the University of Arizona 
South in my district has, you know, taken advantage and seen 
that coming and really created a cyber operations program 
partnering with Fort Huachuca, Federal agencies, seeing that 
this is an opportunity to really train the workforce of the 
future for government, military, and the private sector, and I 
think a great example of really how educational institutions 
need to take advantage of this to provide training and 
opportunities, you know, for good jobs in the future. So I just 
want to highlight what is happening at the U of A South.
    I am former military. You look at our potential 
adversaries. They don't want to take us head-on although they 
are closing some gaps. But we are so heavily reliant on network 
operations for command and control, for situation awareness, 
you know, whether that is GPS [Global Positioning System] or 
how we are managing unmanned aerial systems, even how we are 
managing air tasking orders and time-sensitive targeting.
    If you are the bad guy, you want to go after that 
asymmetrical potential Achilles' heel. Although we haven't seen 
it happen, I would like to hear your comments on our 
vulnerability. Obviously, we are in an unclassified setting, 
and what we, you know, could do because if we had an adversary 
go in that direction and try and take us down, we would--you 
know, we talk about like the AOR [area of responsibility] would 
go stupid pretty fast, like we wouldn't be able to operate; we 
wouldn't know how to command and control and give directions to 
our assets. And I see this as a very deep vulnerability that we 
have. Do you have any comments on that and what we need to be 
doing better about it? You want to start, Mr. Healey?
    Mr. Healey. Thank you. It is tough for me when you ask me 
the question not to answer first with ``Assault Course, 
Ma'am.'' So I would start with----
    Ms. McSally. Sorry about that.
    Mr. Healey. You haven't had----
    Ms. McSally. Put him through basic training.
    Mr. Healey [continuing]. The cyber Pearl Harbor the way 
that we thought in some way because cyber attacks tend to only 
take down things made of silicon, things made of ones and 
zeros, and those are relatively easy to replace.
    The more that we are bringing in the Internet of Things 
[IOT] and the smart grid, the more that those same attacks, 
instead of just bringing down things made of silicon, can bring 
down things made of concrete and steel.
    Ms. McSally. Right.
    Mr. Healey. So I am not of those that think cyber attacks 
have been that bad lately. I really don't, because no one has 
died yet. I think we are going to look back at these days as 
the halcyon days when Americans had not yet started dying from 
these.
    So, to me, that is really where I would like to start 
putting a lot of my time and I think the time from the DOD and 
from Congress and in trying to see what we can do about--to 
secure the IOT and keep our adversaries away from them. Thank 
you.
    Ms. McSally. Any other comments from----
    Dr. Singer. I think you are spot-on, and I would point to, 
you know, so what would make the previous member happy, we 
spent over $2 billion on construction in the Fort Meade area 
alone, which is great. We have grown up this capability in 
Cyber Command, but the Pentagon's own weapons tester found in 
their words, quote, ``significant vulnerabilities,'' end quote, 
in every major U.S. weapons program. And that is made up--it 
has revealed itself in everything from China flying comparable 
copycat versions of the F-35, which either coincidentally the 
J-31 looks like it or it is because there were reported three 
different breaches during the design process, to exploitation 
during warfare itself.
    So, in terms of what Congress can do, I think we need to 
have a focus on building resilience within the DOD acquisition 
system. Specifically, establishing metrics and determining 
where progress has been made or not in our acquisitions process 
to deal with vulnerabilities in that. So we know they are 
there; what can we do about it?
    I would also add: we can explore how to use Pentagon buying 
power more effectively outside the defense industrial base. So, 
for example, entities like Transportation Command have 
relationships with a lot of different critical infrastructure, 
how can they incentivize them to get better at their 
cybersecurity using Pentagon buying power?
    Ms. McSally. Dr. Libicki.
    Dr. Libicki. Three things. First, I think we need a better 
understanding of our end-to-end vulnerability. Part of the 
problem in defensive cyber is we tend to chop them up into 
little pieces and look at the vulnerability of each piece, but 
in fact, if the bad guys are going to exploit our 
vulnerabilities, it is going to do it on an end-to-end basis, 
and this is the basis under which you ought to measure things.
    In terms of the vulnerability, as you point out, this is an 
unclassified session. So my best guess is that heterogeneity 
and, believe it or not, legacy systems make a big difference 
because it gives us a lot of ways of doing different things, 
and I think, in general, the fact that our warfighters tend to 
be given the authority to do their own innovation is very 
important because, after a cyber attack, the world is going to 
look different than it did before, and how do you put the 
pieces back together becomes very important, and a well-trained 
military that knows how to think on the spot in different ways 
becomes very important in the aftermath of a cyber attack, part 
of the resilience package.
    Ms. McSally. Great. Thank you. I had another question about 
ISIS, but I am out of time. I often--we see ISIS either using 
the internet to recruit, train, direct, yet the internet was 
continuing to still work in Raqqa. I have asked many times in 
this setting, why is the internet still on in Raqqa? But we 
don't have time. So we will follow up with you all later.
    Thank you. I will yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Chairman Thornberry and Ranking 
Member Smith.
    Dr. Singer, I am going to build on that but maybe closer to 
home. An area of major concern is the supply chain 
vulnerabilities where malicious software, hardware is 
inadvertently--or exists in the development or acquisition of 
different systems.
    In your testimony, you express concern over the significant 
vulnerabilities in every major weapons program, extending from 
breaches of operational systems to original design process. Can 
each of you speak to how we can tackle these vulnerabilities? 
What checks and balances can we put in place to avoid 
developing systems with malicious software or hardware? And 
what resources do we need to invest in order to protect our 
supply chain?
    Dr. Singer. So I should clarify this phrase of significant 
vulnerabilities. That is actually from the Pentagon's own 
weapons tester. So it is not merely an assertion of mine. It is 
from our own government's reporting on it. The concern here, 
again, as you put, is not just merely, what does it do in 
acquisitions, what does it do in an operational environment 
like we explored in future scenarios, but it also means it is, 
I would argue, difficult to impossible to win an arms race if 
you are paying the research and development for the other side.
    And so, in terms of what can be done, I think the question 
for Congress is where, in using your authority, what are the 
changes needed in acquisition law, or is it processes, is it 
policy, to create better requirements for essentially 
resilience to cybersecurity attack, not preventing it? We will 
never be able to prevent all of it but build resilience to it.
    This also points to the human resources side that we have 
talked about, and again, this cuts across the board in 
everything from within the military, as was laid out, to 
outside and broader society, and it is very exciting to hear--
everyone is very proud of the different universities. We need 
to think about how we can build training for cybersecurity into 
our education system to create better levels of cyber hygiene. 
Thank you.
    Mr. Carbajal. Thank you.
    Dr. Libicki. There has been a lot of concern about the fact 
that some of our foreign sourcing leads to vulnerabilities. I 
am not entirely certain whether we need to do all that much 
more than we are currently doing. I remember that there was a 
lot of discussion 20 years ago when people were talking about 
fixing the Y2K [Year 2000] problem, and there was a lot of 
handwringing about foreigners working on our code, and 
therefore, we become much more vulnerable because we couldn't 
trust the foreigners to work on our code, and I haven't seen 
any evidence that that really mattered to Y2K or that mattered 
to vulnerabilities in the immediate aftermath of Y2K.
    I think, as a general principle, it gets back to 
understanding our end-to-end vulnerabilities. Even if a 
particular product is weak, if there is no way to exploit the 
weakness, that gives you a certain level of protection. So you 
do have to look at supply chain vulnerability as part of a 
broader overall systemic end-to-end vulnerability issue.
    Mr. Healey. Thank you very much.
    I have been impressed with how much has been done on the 
academic side and within the computer security community on 
trying to build a trusted system on untrustworthy components. 
So, for example, if you use end-to-end encryption, like is 
happening now in Apple, even if you don't trust the systems 
between you and the person you are talking to, there are tools 
like end-to-end encryption that can give you much more trust 
over the system as a whole.
    One example in the DOD context is DARPA [Defense Advanced 
Research Projects Agency] is now putting a system they call 
HACMS [High-Assurance Cyber Military Systems], the High 
Assurance Computing Systems--I can't remember the exact 
acronym--where they are using mathematically provably secure 
code. They have done this on a helicopter drone. They have 
given a red team hacker access to part of that drone, and they 
have not been able to get out, to hack the entire drone and 
take control of it. So here are areas where you can trust the 
system even if it has some untrustworthy components.
    I would like to also call out what has been happening 
between the defense industrial base companies themselves. The 
amount of information sharing, my colleagues tell me, have 
gotten that, in the past, if the Chinese were to hack one of 
those companies, they could use that same vulnerability to hack 
all of them. And it has now been several years where the 
sharing and the defenses have gotten so good that now they have 
to use a different software vulnerability on each of these 
companies. I think that is exactly getting toward the kind of 
defenses that we need, and it is probably more because of the 
sharing, which is cheap, than having to add more and give them 
more money in the contract so they can improve their security.
    Thank you.
    Mr. Carbajal. Thank you for your insight and your wisdom.
    I yield back.
    The Chairman. Ms. Stefanik, do you have additional 
questions on your own time?
    Ms. Stefanik. Thank you, Mr. Chairman.
    NATO [North Atlantic Treaty Organization] has introduced 
the Tallinn Manual through its Cyber Defense Center of 
Excellence in Estonia, which provides an analysis on how 
existing international law applies to cyberspace. The most 
recent Tallinn 2.0 Manual focuses on cyber operations and 
discusses cyber activities that fall below the thresholds of 
the use of force or armed conflict.
    Is this framework helpful in establishing international 
norms for nation-states, and what, if anything, would you 
recommend we consider incorporating into U.S. policy?
    I will start with Dr. Libicki.
    Dr. Libicki. I mean, I can say nice things about global 
rule under international law, but international law is only as 
good as countries that support international law are willing to 
support it. In other words, they are willing to put muscle 
behind violations of international law. And I would--I regard 
international law as a tool of policy. I do not regard it as a 
substitute for policy.
    At some point, you have to take certain elements of 
international law seriously enough to say, ``This is 
unacceptable, and this is what we are going to do about that,'' 
and this is in turn part of a broader discussion, which I urge 
that we have, about what in fact constitutes thresholds. Okay.
    Part of the problem with using international law as a base, 
as was obvious in the Tallinn 1 Manual, is that there is a lot 
of disagreement among people about what in fact constitutes 
legal behavior, and you don't have the same judicial mechanism 
in the United States where you can point to the opinions that 
are rendered by judges to say, okay, there is a consensus that 
this is a way it is and this isn't the way it is. We don't have 
that. Okay.
    So, in the end, international law has to be supported by 
nation-states--by countries and their willingness to take risks 
in support of law before it becomes actionable.
    Ms. Stefanik. Thank you.
    Mr. Healey and Dr. Singer, do you have anything to add?
    Mr. Healey. I am a huge fan because it takes a lot of the 
arguments off the table. You know, instead of arguing, well, 
arguing from scratch if we think something is an act of war, 
not now; we at least have a place to come from. And that helps 
a lot. Now we can argue what part to do about it. That is 
really what has been tripping us up, I think, more than 
anything, is not what to call something or what thresholds to 
set, but what are the actual policy tools and how are we going 
to use them in each instance, and hopefully now we can focus on 
that.
    Ms. Stefanik. Dr. Singer.
    Dr. Singer. I am a huge supporter of it as well. I would 
just add two things to it. The first is to recognize that there 
is not just this process but a broader webwork of agreements 
and norm building that is going on in everything from 
bilaterals with allies to multilaterals, be it at NATO to all 
the way up to United Nations. And I think a key area for action 
for Congress is to essentially request of the administration, 
what is your overall strategy here, how does this all fit 
together, and, most importantly, are you not going to let this 
fall by the wayside, because it is clearly advantageous to the 
United States to shape these norms in a way that restores 
global cybersecurity.
    The second most important thing is to recognize that the 
quickest way to undermine norms and laws is to take an action 
when they are broken, and we have seen repeated instances, 
specifically by Russia, in everything from attacks on power 
grids that were no-go areas, such as in Ukraine, to most 
recently this broader campaign that I mentioned. And so, if we 
want to norm build, we also have to take actions besides just 
write things down in treaties.
    Ms. Stefanik. Thank you.
    In some of your testimonies, you have talked about our 
increasing capabilities when it comes to attribution. My 
question is, how good are we at doing battle damage assessment 
[BDA] in cyberspace? Are there areas or capabilities that we 
need to invest in to improve our ability to do BDA?
    Mr. Healey. Do you mean against our--when the attack is 
against us or----
    Ms. Stefanik. Yes.
    Mr. Healey. Yes. Here, I think a lot of work that has been 
happening in the Information Sharing and Analysis Centers as 
well as the new policy from the past administration for 
Information Sharing and Analysis Centers to try and come 
together and get that coordination done within the affected 
sectors themselves or the affected companies, that depends so 
much on which sector has been hit to try and figure out the 
level of disruption.
    Some, like finance, are extremely good at this. Their 
regulatory agencies are banging on the door to find out what 
happened. Other parts of our critical infrastructure, like 
water, aren't going to be as strong, and that underlines, I 
think, how good the sector organizations are, how well they are 
regulated, for example, rather than anything specific to 
determining the level of disruption and the damage.
    Ms. Stefanik. Dr. Singer.
    Dr. Singer. This is one of those key areas, I think, to 
delve deeper into in the muddy boots training side. So, for 
example, if you lose 10 percent of communications, it is only 
if you actually go out and exercise it that you understand that 
maybe it doesn't have a 10 percent compromise on you; maybe it 
actually means your entire organization can't work. Or, 
similarly, if it is not you lose access but that you can't 
trust communication. If one time the adversary inserts false 
information, be it into GPS or false information into an order, 
does that mean that you no longer trust the system itself, so 
the entire system goes down?
    So that is one of the areas where I think we need to evolve 
it more and do our own training to understand the effects of 
it. That is the only way.
    Ms. Stefanik. Thank you.
    My time is expired.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, and I really appreciate all of you 
being here today. Thank you, Mr. Chairman.
    My question is about the disentangling of the NSA and Cyber 
Command. And so I see some of the benefits and challenges. I 
would like you to expand on that a little bit and especially 
about how that relates to our ability to respond dynamically to 
threats or challenges as you see them and our ability to be 
fast and flexible there.
    Mr. Healey. Thank you very much, Congresswoman Rosen.
    The most dynamic part of America's cyber defenses is not 
Fort Meade, and it will never be at the Pentagon. It just 
isn't. They can't--pretty much no part of the U.S. Government 
is actually creating and maintaining cyberspace. One of my 
colleagues that used to--a former Army major that then went on 
to work at Verizon--said, look, if there is an attack, we at 
Verizon and our colleagues and our companies, we can bend 
cyberspace if we need to; we can change the physics of the 
space to blunt this attack in a way that is incredibly 
difficult for places like Fort Meade and U.S. Cyber Command to 
do. U.S. Cyber Command simply just doesn't have the levers to 
be able to respond agilely enough to attacks against us.
    They can certainly attack back, but they are not--they are 
not tied in in the same way as these companies are. And so, 
because I believe that the private sector is the supported 
command, they have agility, they have the subject-matter 
expertise, and they can bend cyberspace if they need to, that 
our money is best spent, rather than trying to recreate that at 
Fort Meade, find ways to help make sure what they can do 
better.
    Dr. Libicki. You have asked an interesting question, which, 
unfortunately, I don't have a clear answer for because I am 
still thinking through it. Okay? But a lot of what you do with 
Cyber Command, vis-a-vis NSA, depends on what you actually want 
Cyber Command to do. If you are thinking of what Cyber Command 
does as part of a broader information operations area, then you 
need to bring Cyber Command in with other parts of the 
Department of Defense that deal with information operations. 
And this is not a--this is not something that is currently on 
the table.
    Ms. Rosen. Cyber Command, doesn't it also execute?
    Dr. Libicki. Right.
    Ms. Rosen. Right.
    Dr. Libicki. In terms of its--in terms of its offense 
mission is what I am referring to. Okay? In terms of its 
defense mission, it is a coordination between Cyber Command and 
the way the networks are currently managed that becomes an 
important component. And for a long time, NSA has had that 
responsibility to improve the security management of DOD 
networks.
    If you are looking for Cyber Command to think in terms of a 
general analysis of the vulnerability of other people's 
militaries, then you may want to bring them in together with 
other folks who look at the vulnerabilities of other people's 
militaries that are not necessarily digital zero and ones but, 
in fact, arise from the interaction of the various components 
of their militaries. And that is about as far as I have gotten 
in my thinking, unfortunately.
    Dr. Singer. So I think we have laid out earlier some of the 
rationales for it, and it ranges from the split, as you note, 
between, essentially, the evolution of the missions from 
intelligence to Cyber Command becoming more and more 
operational, both offense and defense, having training 
requirements and the like. As I mentioned, there is the double-
hat problem of just human talent.
    There is another aspect of this that I think is interesting 
to talk with you about is go back to the original rationale for 
why they were double-hatted. It was both because the creation 
of Cyber Command, it didn't have its own culture, didn't have 
its own human talent, but it also was because there was a 
concern that the head of Cyber Command would not be able to 
speak with a voice or authority that would get Congress' 
attention.
    Ms. Rosen. Right.
    Dr. Singer. Post-Snowden, the absolute opposite happened 
where you are more interested--maybe not you individually, but 
Congress is more interested in the NSA surveillance encryption 
debate side. And we even saw that in the confirmation hearings 
for the head of Cyber Command.
    So I think for this wide variety of reasons, it makes sense 
to split them, but I would not do it instantaneously. I would 
do it like the transition that we had with the Joint Forces 
Command where the mandate, so to speak, of the last commander 
was figure out how to disentangle this in a way that doesn't 
compromise effectiveness.
    Ms. Rosen. Thank you.
    Well, as a former computer programmer and systems analyst, 
I have about a million more questions about the public-private 
partnership versus privacy. We don't have the time to do it 
today. I hope you will come back, and I will be able to ask 
them all. Thank you.
    The Chairman. You can use the gentlelady as a resource as 
you go on ahead. That is what is clear to me.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, many of my questions have been answered, but I 
want to go back and focus on a couple of things. The Y2K issue 
was approximately 20 years ago. It was not intentional, but my 
question has always been, as we talk about malware and digital 
and Xs and Os, one of the vulnerabilities that we don't talk 
about much, which has been mentioned before, has been the 
supply chains and the ability to perhaps embed things in 
hardware prior to the manufacturing of the actual equipment.
    I go back to just, for example, the GPS system that we put 
in an airplane or a radio system that we put in an airplane, 
could it be preprogrammed to stop working at a certain point in 
time, in which case that would give your, certainly, major 
adversaries, your near-peer adversaries, a distinct advantage 
over you, and that if they knew that you were going to lose 
radio communications at a certain point in time, that would 
obviously be an opportune time for them to go on the offense.
    And so it seems to me that we have this constant testing, 
if you will, of capabilities among select few countries. When 
one of those countries finds a weakness, the question is how 
far do they go in exploiting it, I guess, before a cold war 
actually becomes what we would acknowledge as a true war.
    I listened to your comments on the split of leadership at 
NSA, certainly interested in further discussion on that. But I 
would like for you to speak, if you would, towards the future.
    Dr. Healey, you said that we don't have the levers that the 
private sector has to bend cyberspace, I think is the way you 
put it. We obviously have Active Duty personnel. We have 
National Guard personnel. National Guard has had a tremendous 
amount of success in helping us. What is the--what does the 
Cyber Mission Force look like 20 years from now? What are the 
decisions that have to be made to make sure that we have that 
cyber force?
    Mr. Healey. Thank you very much. It is a great question. 
And to put some context, I am not taking swipes at Cyber 
Command. I was one of the initial cadre of what became Cyber 
Command. When I was a young captain in the late 1990s, I helped 
the headquarters there set up what was to become the Joint Task 
Force-Computer Network Defense and was one of the 21st--one of 
the first 25 cadre members there, and then it went on to grow 
to be U.S. Cyber Command.
    When I think about--it is a great question and what that 
force might look like. One of the futures that I start 
thinking, and I am saying, what would happen if we went down 
that--if--what cyber conflict might look like in 10 years.
    Last year, at--DARPA funded a contest called the Cyber 
Grand Challenge in which they had different supercomputers 
discovering their own vulnerabilities and throwing--discovering 
vulnerabilities and attacking the other supercomputers on 
stage, which then had to run through their programming and come 
up with automated defenses. And, certainly, when I am thinking 
about what cyber conflict might look like in 20 years or 10 
years, that to me seems like somewhere obvious to start in 
where DARPA is already thinking.
    So just imagine how--what that might mean for the Cyber 
Mission Force where we have over 6,000 people at Fort Meade, 
and other places now, preparing for a fight. Well, if the 
future conflict is going to be malicious software that has got 
a back end over a supercomputer telling it what to target next, 
how to change to avoid defenses, you now need your own 
supercomputer to try and defend against that. And I think that 
has just tremendous challenges for military doctrine, for 
organizations, and certainly, for staffing.
    Mr. Scott. That brings me to another question. I mean, 
obviously, a lot of these people, they are extremely 
intelligent. We need to have the ability to work with these 
people. They may not be interested in joining the military. 
They may not work, certainly, full-time or part-time. I mean, 
for lack of better terminology, I mean, do we, when we see this 
problem coming, deputize a cyber posse like the old days where 
you bring people in that you have never worked with before?
    And, Dr. Singer, I know--interested in your opinions.
    Dr. Singer. That is why I am an advocate of, look, there is 
great talent within Active Duty. National Guard has been a way 
to pull in. We have reorganized, so we can pull in that talent, 
you know, that already has cyber skill sets. But at the end of 
the day, as you note, there will be a wide range of people who 
either are unwilling to serve in the National Guard and 
Reserves or they simply won't qualify for physical reasons, 
whatnot. And so we need to create alternative pathways to draw 
people in beyond just contracting them.
    And that is why I am an advocate of both this Civil Air 
Patrol cybersecurity equivalent to expansions of the U.S. 
Digital Service to include cybersecurity, simply looking at 
outside of this field, what are like models that we know work? 
How do we use those to bring in cyber talent?
    And then, lastly, I would point to the bug bounty program. 
The--you asked, you know, what will this look like? The people 
that participated in the Pentagon's first bug bounty ranged 
from off-duty government workers to people working in business 
doing it nights. My favorite example was an 18-year-old who did 
it in the middle of their AP [Advanced Placement] test, who 
volunteered to help defend Pentagon networks and reportedly he 
did it because he just wanted the T-shirt. So we have to have a 
means of pulling in all this wide variety of talent. That is 
what makes America great.
    Mr. Scott. But you also have to get them cleared from a 
security standpoint. You have to have them operate under some 
agency out there, and those are things that, I think, need--we 
need to have that outlined before the attack happens.
    Dr. Singer. Absolutely.
    Mr. Scott. Mr. Chairman, I apologize for going over.
    The Chairman. That is fine. Interesting discussion.
    Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I guess I want to go back a little bit to Mr. Scott's 
issue, because I have a concern that what we are doing here is 
without deterrence, without clearly showing deterrence that we 
are in this never-ending spiral of more and more people, more 
conflict between budget for cyberspace and the budget for 
defense; how do we pay for it, that the people that are 
attacking us are spending far less to attack us than we are to 
stop the attacks. And so it appears that the deterrence factor 
has to be something that is credible, as Mr. Libicki said.
    I am just trying to understand how we start to slow down 
that cycle. It is a great full-time employment issue for a lot 
of young people that are coming out of our universities, but it 
is a serious question as far as our long-term capability to be 
able to defend ourselves without trying to deal with the 
deterrent side in a meaningful way--if we do not deal with it 
in a meaningful way.
    So how does that all occur? And, Mr. Libicki, I would like 
to start with you.
    Dr. Libicki. I think, ultimately, the way you discourage 
people from attacking you is to give yourself an architecture, 
the relationship between information and systems, that reduces 
their value--what they get from attacking you in the first 
place.
    And even if we had an effective national deterrence policy, 
we would still have many other threats from criminals, from 
insiders. And so one of the advantages of defense and 
resiliency is that defends against people, no matter what their 
motivation and no matter what way we can and cannot reach out 
and touch them.
    Mr. O'Halleran. And I take it from your comment that you 
don't feel we are at that point yet where we have the system 
that can deter like that?
    Dr. Libicki. I think we have made a great deal of progress. 
I think we have a lot more progress to make. It is going to be 
a long challenge.
    Mr. O'Halleran. Dr. Singer.
    Dr. Singer. So there are different forms of deterrence. And 
because of the Cold War experience, we typically focus on the 
idea of deterrence by overwhelming retaliation.
    There are many things for the people in Fort Meade to be 
upset with Mr. Snowden about, but the one thing he did reveal 
is that there is no question of our offensive capability. And 
yet, as we see, the attacks continue. So it is not like the 
Cold War where there is mutuality here and that, you know, 
someone attacks us and we respond in a like manner. So if we 
are thinking about retaliation, it is going to be better using 
those other tools of American power to influence actors that 
have both attacked us but also others looking to it. And that 
is why I am very pointed about the Russian campaign and our 
lack of a response to it has incentivized a wider array of 
actors.
    Secondly, there is a different form of deterrence which 
wasn't possible in the Cold War called deterrence by denial or 
it's resilience. It is the idea that I don't attack you not 
because you are going to hit me back, but because my attack is 
not going to succeed. You will shrug it off. And importantly, 
resilience would be a useful building activity. Whatever the 
form or type of attacker, you build good resilience, it is good 
against criminal actors, state actors, you name it.
    And in my written testimony, there are a whole series of 
actions that we can take to raise our resilience levels and 
therefore make attacks against us less successful and, 
therefore, less likely.
    Mr. O'Halleran. Thank you.
    And, Mr. Healey, just to go a little bit further on this. 
We just talked about Russia during the Cold War. It got to the 
point where they just appeared to not be able to afford to 
continue on with the path.
    In this instance, we have a situation where those that are 
attacking us can afford to keep going because our cost ratio is 
much higher than their cost ratio. How--just how do we start to 
stop that? I understand what Dr. Singer just said, but, again, 
the architecture is just not there right now, and our cost is 
just exploding.
    Mr. Healey. There are new architectures and new things that 
are coming down in the computer field that I think will help. 
We have been doing a New York cyber task force at Columbia 
University to say what can we make a more defensible 
cyberspace, a more defensible America, more defensible sectors, 
more defensible companies. And so, for example, going to the 
cloud. I was astounded how many of the bank chief information 
security officers and others that were saying absolutely allows 
you a more secure foundation to build that from the ground up. 
The CIO [chief information officer] thinks he is going to do it 
for cost reasons, but really you do it for security.
    I would also like to add, I tend to be very hesitant when 
it comes to trying to raise the adversaries' costs more 
directly, but I certainly think when it comes to Russia, we 
have got a national mission team. They are looking into red 
space, able to disrupt the Russian influence operations and 
cyber attacks. I think, absolutely, we should start thinking 
about that to help out France, German elections as they are 
coming up. Thank you.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I appreciate our panelists for joining us today. Dr. 
Libicki, I want to start with you. You have spoken very much 
about building an offensive capability. I have a particular 
interest in that, because I think it is the way that we can 
make our adversaries use their resources to defend their 
systems. I think that is extraordinarily important.
    Give me your perspective about how in the realm that we see 
ourselves in, especially with the United States Navy with new 
systems, unmanned platforms, and what we have to do to create 
command and control there, how do we not only protect those 
systems, but how do we look at vulnerabilities that our 
adversaries might have with their systems so that their time is 
taken up not in going after our links within our systems or 
looking for weak points there, but what they have to do to 
defend their systems. And how do we most aggressively pursue 
that?
    Dr. Libicki. Well, there are a number of standard ways for 
exploring other people's systems. And one of the best ways is 
actually buy a copy of them and then run it in our test labs. 
We did that throughout the Cold War, and I don't think our 
activity has slowed down very much.
    To the extent that they use international components in 
their systems, they already have a certain amount of 
familiarity with that. We probably pick up a great deal of 
electronic intelligence just by listening to these components 
communicate with them over the air. Okay? But let me actually 
address your question by asking a question, for which I am not 
quite too sure there is a good answer, but I will do this 
anyway.
    To what extent do we want to tell folks or hint to folks 
that we have an ability to interrupt their information systems? 
Okay? On the one hand, it gives us a great--a certain amount of 
deterrence. It reminds people who are doing a lot of--throwing 
a lot of stones that they live in glass houses, and it reveals 
our intention to go after their glass houses, which I think is 
very important.
    On the other hand, you want to do it in such a way that it 
doesn't look overly aggressive, aggressive but not overly 
aggressive, and you want to do it in such a way that it doesn't 
give away too much of how we actually do our business.
    So there is a lot of trade-off to be had here. I think we 
are in a good position where we are given credit for a lot of 
capability without necessarily having to show it. I don't know 
what the depletion rate of that confidence is. Okay? But right 
now I think it is pretty high.
    So we have American defense officials, certainly in the 
last administration, I think in this administration, who have 
hinted from time to time that we have a great deal of 
capability, and they need to watch themselves, but to maintain 
that confidence, or lack of confidence, in their mind, I think 
is a challenging problem but not an insurmountable one.
    Mr. Wittman. The next question. How do we, as we look at 
where the future brings us with educating and training our 
military members and leaders today for the challenges they will 
face tomorrow within the cyber realm--and I have been an 
advocate to say all the way from the basic training level, 
tactical level, all the way up to the strategic level, there 
needs to be a common theme of training and educating everybody 
in the military as to the cyber sphere that they are going to 
operate in.
    Give me your perspective on where you see things currently 
going, maybe even some of the efforts that are undergoing 
through your experience that are happening maybe at places like 
the academies, and what needs to happen there to make sure we, 
from top to bottom in our fighting force, emphasize the cyber 
realm as much as we do the kinetic realm?
    Dr. Libicki. I am glad you asked that question, because it 
allows me to speak on behalf of my employer. I think the Naval 
Academy does a really good job on this. We have two semesters 
of requirements for all naval and Marine Corps officers; one 
they take in their first year, one they take in their third 
year. I have a little experience with them, because I teach a 
lot of freshman this sort of stuff. We also have a cyber 
operations major. This year, we will be graduating about 40 
folks. And one of the nice things I like about the program is 
that we spend years two and three on the technical education, 
and then starting a bit in year three and into year four, we 
give them the policy perspective.
    One of the biggest shortfalls in the area of cyber is you 
have a lot of technical people that can't talk policy; you have 
a lot of policy people who don't have a rich enough foundation 
in the technology. And I believe the Naval Academy is 
graduating officers that, in fact, have a background in both of 
them. And I think that is very beneficial, and I think it is 
something that I--speaking ex cathedra that I think the other 
two military academies also should take a serious look at.
    Mr. Wittman. Are there any efforts underway currently as 
far as facilities or things that might be there in the future 
to make sure that we are even enhancing that experience with 
things like, you know, a secure facility like a SCIF [sensitive 
compartmented information facility] for them to be able to 
learn and operate within?
    Dr. Libicki. Well, as you happen to ask, we are building a 
cyber building, the Hopper--Hopper Hall, I think it is called, 
on campus. It should be ready in about 2019, and it is supposed 
to have a SCIF.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. With that, I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I want to ask Mr. Healey a question. In your testimony, you 
recommended that the U.S. needs to take further steps to deal 
with foreign influence in cyber realm. And I wanted to ask you 
if you could elaborate more on what those steps look like and 
which agency you would have spearhead those?
    Mr. Healey. Yes. Thank you, Congressman Veasey. I think it 
is a tough question, because one reason why I think we have 
turned to the Department of Defense to help us out on cyber 
issues, has been they were there with the capability when they 
were needed.
    Many people have been very disappointed that it has taken 
the Department of Homeland Security so long to get themselves 
up when it comes to dealing with cyber issues, and yet DOD has 
been there quietly providing capabilities for a long time. I 
see the same problems are going to affect us here when we are 
talking about influence operations. DOD clearly should not be 
in the lead on such things, but we could easily imagine ways 
that the Department of Defense can bring their amazing 
capability to bear on this. They have already been studying 
information operations. I think they should be coming to 
Congress with different projects to fund within the--probably 
within the cyber branches, for example, 24th Air Force or 10th 
Fleet, to start rebuilding that information operations 
capability.
    And also, blowing--blowing on the coals of where those--
that information operations capability resides, particularly 
National Defense University. And, hopefully, that can kick off, 
while the interagency process is figuring out how better to 
deal with this. I think there obviously will be a role for 
Justice and for State and the Department of Homeland Security, 
but it is going to take them much longer, I think, to get their 
capability up to speed, unfortunately.
    Mr. Veasey. Thank you very much.
    And, also, I wanted to ask about just the relationship 
between the private sector and the government moving forward 
when addressing these cybersecurity concerns. You know, there 
have been, obviously, lots of talk about the government being 
able to have a back door to be able to go into some of these 
devices so they can go back and find out exactly what was 
taking place. But then, also, there are other--there are apps 
and things like that that are overseas that these--that the 
companies here in America don't necessarily have the same 
access to that wouldn't be able to unlock some of those clues 
that we may be seeking in case of some sort of a terrorist 
attack. So I just wondered if you had any thoughts on that at 
all, either--any of you.
    Dr. Singer. So across the board, if you did a poll--and, 
actually, they have been done--of cybersecurity experts, 
consistently they would say that building in back doors is the 
best way to create greater vulnerability for the wider public 
and the Defense Department systems themselves that we have 
talked about. So that is why you find very few advocates of 
that within the community. And, oh, by the way, people would 
just move to other systems.
    So the challenge, I think, you know, to move--that is a 
known known. The challenge between the public and private 
sector relationship now, one of the key areas is just who does 
the private sector turn to for help when there is an incident?
    The administration towards the--the Obama administration in 
its last year began to clarify that a bit, but it is not yet 
enough, it is not yet clarified. And in my sense, among the 
proposals that I have got there is, you know, the idea you need 
a one-stop shop, a key place for them to go.
    I wanted to circle back, though, to your prior question 
about influence operations. Much of this, the activity to 
counter it, is going to have to happen outside of the Defense 
Department. It is everything that we mentioned from the 
creation of an Active Measures Working Group to debunk lies and 
make it harder for people to spread them. It is to the debate 
over critical infrastructure and our election systems has, I 
believe, wrongly focused just on voting machines when, clearly, 
the targets are political organizations.
    They should be having the same kind of information sharing 
that competing banks do, and same kind of linkups to 
government. The activities during the 2016 election would have 
been stopped if just the FBI and the DNC had had a better means 
of communication and had been able to trust each other.
    To--again, there are other elements to this. On the 
intelligence community side, Congress should be requesting 
briefings on just what these influence operations in the 
broader spread of social media means for the likelihood of 
conflict itself, how it is affecting popular sentiment among 
adversary states and the like.
    Mr. Veasey. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman. I stepped out to get a 
couple of votes in, but good to be back.
    My question is about the dual-hat relationship between 
Cyber [Command] and National Security Agency. We heard some 
testimony today that suggests there is a good thing to break 
that into two different [inaudible] for staffs. [Inaudible] I 
was at Fort Meade earlier this week, and there are indications 
to do the same, but I see warning signs of that. Right now, the 
expression of cyber teams, there seems to be a cohesion of, you 
know, a synergy between the NSA side and the--some of it, 
sometimes it is one person, goes to title 50 to title 10 back 
to title 50. Eventually, at some point, you are going to get 
different priorities, different visions, and I see where it can 
break down that synergy that you need and that cohesion.
    What are the benefits of moving away from a dual-hat 
relationship and getting two different four-stars? And isn't 
there a better way to elevate Cyber Command than going down the 
path that some are suggesting? And I would just open it up to 
anybody that would care to answer.
    Dr. Libicki. Let me make sort of a tactical--a tactical 
statement here. We tend to think of attack and espionage as two 
different things. Right? Attack is your title 10 thing, 
espionage is title 50. We shouldn't have the same people doing 
attack as we have doing espionage. But in practice, the two may 
be a lot more similar than we think.
    Let me give you a scenario. Let us say that I can attack a 
network, inject messages in a network and tell the bad guys to 
meet at a particular place. I get there an hour before they do, 
tactical engagement, I win. Right?
    Mr. Bacon. Right.
    Dr. Libicki. Scenario two. I listen until I find out that 
they are going to meet in a particular place. I find out where, 
when. I get there an hour before they do. The tactical results, 
fairly similar. Right? Why do you want one organization doing 
one and one organization doing the other because we happen to 
have defined injection as a title 10 issue and interception as 
a title 50 issue?
    I think what those folks are doing--and sort of as a 
broader issue, a lot of what you can do with interception of 
information these days has a lot more tactical relevance than 
it did 20, 40, 60 years ago. If I can get into your equivalent 
of Blue Force Tracker and just listen, the tactical advantages 
I would have would be tremendous.
    Mr. Bacon. So you are positing here that you should have a 
totally separate Cyber Command that has that reconnaissance 
capability? Is that what I am hearing?
    Dr. Libicki. Well, if you end up with that reconnaissance 
capability, you have now recreated a large chunk of NSA.
    Mr. Bacon. That is right. So wouldn't you want a single-hat 
or a dual-hat four-star?
    Dr. Libicki. Well, that is a different voice, and again, 
have to give more thinking about. You certainly want some very 
strong XOs [executive officers] in both of them. Right?
    Mr. Bacon. Right. Two different----
    Dr. Libicki. So that, in fact, the XOs are running the 
agency.
    Mr. Bacon. Which is what we have today.
    Dr. Libicki. Which is what we have today, so it depends on 
the quality of the XO.
    Mr. Bacon. Mr. Healey, it looks like you have a different 
thought.
    Mr. Healey. I think both Peter and I were looking to jump 
in.
    One, I don't mind creating a friction. I think this is the 
most escalatory kind of conflict we have ever come across. I 
don't mind having some brakes on that, just like we don't mind 
brakes on using nuclear capability.
    The people that say let's keep them together, they want to 
optimize offense, intel, and defense, and it is true, keeping 
them together does optimize that. I want to optimize America's 
overall defense, and that means optimizing the integration with 
the private sector.
    Look at what we have done. We have folded information 
assurance directorate farther into the signals intelligence 
directorate at NSA. I would have loved the option to keep that 
out so that they are able to better work with America's private 
sector, which I think are the ones that are truly doing the 
defense.
    Of course, it makes sense to optimize those things. I just 
think we--there is a higher priority when it comes to this.
    Mr. Bacon. Mr.--Dr. Singer.
    Dr. Singer. I think there are two points here. The first 
is, just because you divide the dual-hat structure doesn't mean 
that they can't continue to work effectively together. And we 
can look at models outside this space for how you have seen 
task forces and interagency teams and everything from, you 
know, General McChrystal, what he creates, to engaging into 
counter--counterinsurgency efforts in Iraq, which brings 
together talent from across services, other agencies, to how we 
approach counterdrug efforts down in SOUTHCOM [Southern 
Command].
    So just because you split them doesn't mean you can't 
operate in this interagency manner. And, frankly, as Jay puts 
it, it may be easier to bring in other elements either legally 
or because of their willingness to work with.
    And then the second is, I would echo Jay's point, there is 
a worry, you know, but what if they might disagree? That is a 
good thing. That is a good--that is our system, and 
disagreements then allow the next tier of leaders--it airs 
ideas and then allows the next tier of leaders to get both 
perspectives. So I would say the friction between them isn't 
necessarily 100 percent bad, and in a lot of situations, it 
might be good.
    Mr. Bacon. Okay. Well, I appreciate your inputs. I just see 
a warning--I have commanded five times, and I have seen a good 
rapport, and I have seen some where there wasn't that good a 
rapport. And I could see two different four-stars with 
different visions, and folks that would pay for it would be 
those 133 teams that have to be working well together. So thank 
you.
    I yield back, sir.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and for organizing 
this hearing, which is a big one for this committee.
    First of all, Dr. Libicki, I just wanted to, you know, add 
a footnote to your comments about the academies. I represent 
New London, Connecticut, where the Coast Guard Academy, and 
they are moving very swiftly over the last three or so years to 
boost their cyber curriculum. And I mean, they are, you know, 
very, very much focused on that and doing good work. So I am 
sure, you know, the Naval Academy has obviously been leading 
the way, but I just wanted to at least add that sort of little 
extra comment there.
    And I really have just sort of one question. One of the 
members talked about back doors. And you may have already 
covered this, and I apologize, because I was in another 
committee. But, I mean, we are seeing, you know, obviously, a 
lot of programs flow through this committee, large platforms 
whether it's long-range strike bomber, F-35, Columbia class. 
And, you know, the model for building these platforms now 
relies on a pretty extensive supply chain, which can be, you 
know, firms and companies that are, I mean, tiny. And I just 
sort of wonder if you had any comment about, you know, how we 
sort of address that issue? I mean, it is a big one in terms of 
just, again, the number of actors that participate in, you 
know, pretty sensitive projects.
    Dr. Singer. Sir, you are exactly right. There is a series 
of potential vulnerabilities, and they extend, again, across 
from the software-based attacks on the design process, i.e., 
you know, learning how to model, to copy it all the way to 
operational side, and then the same thing when you think about 
the hardware, the potential of hardware hacks on the chips 
themselves. And the result is that it is--it can play out in 
anything from lost future arms races or future sales to foreign 
markets to actual loss in battle.
    The thing is that the Pentagon senior leadership, I 
believe, is aware of this problem, but the answer to it has 
been kind of uneven in its implementation. And I would urge the 
committee, essentially, to, you know--you are the ones who best 
know, whether it is through a hearing or a report. We need to 
figure out, when it comes to these kind of vulnerabilities, how 
in our acquisition system can we build up resilience, and is it 
law changes that need to happen in that buying process or is it 
policy changes that need to happen to incentivize resilience 
across the supply chain.
    And to echo something I said earlier, we shouldn't just 
think about this, though, in the defense industrial base. DOD 
has a lot of buying power to other parts of the economy. Where 
can it use that influence to aid cybersecurity writ large for 
the Nation?
    Mr. Healey. And if I may, like many cybersecurity problems, 
this comes down to who pays in many cases. If you are talking 
about Lockheed Martin having the defenses to keep out Chinese 
attackers, well, we can say, all right, Lockheed, you have to 
pay for that. But for many of the companies that we are talking 
about here, buying in a more secure way for the supply chain is 
going to be more expensive, and we can't always expect them to 
foot the bill on that to choose a more expensive part for where 
there is a little bit more trust. And, of course, when it comes 
down to more pay, then it is going to be services and 
committees like these that are going to have to help decide 
that.
    Dr. Libicki. I would like to make a statement. We mentioned 
back doors, but I think front doors are also a problem. Okay? 
Imagine you have a very capable--a very great capability, a 
very sensitive capability. And you say, I want these people to 
be able to access it, and you are happy. And then somebody from 
the outside--not the outside, you know, somebody who is part of 
your group, or whatever, part of the military, says, oh, I also 
want an ability to access it. Okay. Well, we give you access. 
And I also want the ability to access it. Sooner or later, you 
end up trying to figure out who has got the ability to access 
it. How many more people do I have to protect? How many more 
people do I have to monitor? Because there is a tendency in 
this world to just expand accessibility because it can help 
people do their jobs. And every time you expand accessibility, 
you expand the attack surface. And if you are not careful, 
every time you expand the attack surface, you have created 
another route for somebody else who doesn't have your interests 
at heart to go in and try to play with your system. So a lot of 
cybersecurity means saying no to people.
    Mr. Courtney. I yield back.
    The Chairman. Chairman Conaway.
    Mr. Conaway. Thank you. The officer corps is being trained 
at the academies, but this exact same training is going on for 
enlisted ranks at Goodfellow Air Force Base in San Angelo, 
Texas. Give a shout out.
    A lot of speculation in the media or in this world about 
how soon it will be before robotic soldiers take the place of 
the fight in the kinetic world. How soon will AI supplant the 
need for--and, Mr. Healey, you mentioned a bit of computer--
computers fighting computers. But how quickly will AI supplant 
the need for all these human beings to be able to defend these 
networks and do what we do?
    Mr. Healey. I will take it quickly, and then yield to 
Peter, since he kind of wrote the books on this.
    One, because I was an alumni at San Angelo, I think it is 
probably going to come more quickly than we think, as many of 
these developments do. The part of it that worries me the 
most--and by that I mean 10 years. The part of it that 
particularly worries me the most is that on the defensive side, 
many people are thinking that artificial intelligence, new 
heuristics, better analytics, and automation are going to help 
the defense. That if only we can roll these things out faster, 
that we will be better and the system will be more stable.
    I think that these technologies are going to aid the 
offense much more than it aids the defense. Because to defend 
against these kinds of attacks, you need your own 
supercomputer. That is fine for the Department of Defense. We 
have got them lying around.
    But for America's critical infrastructure, they are not 
going to be able to afford such defenses in many cases. 
Certainly, small and medium-size enterprises and mom and pops 
are not going to be able to. And so that is why that future, in 
particular, worries me if it goes down that direction, because 
it leaves much of America undefended.
    Mr. Conaway. Let me ask one other thing, and you can 
comment on either one of these. But most of these cyber 
warriors, the human versions, will be in protected enclaves, 
probably here in the continental United States, where most of 
the work will never need, really, to be able to field dress an 
M-4. However, there are others in this group that may be fully 
deployed again and protect the enclaves, but they should have 
some familiarity with it.
    Is the DOD doing a good job of being able to split out 
those guys, who are going to be in an enclave forever, don't 
need to look like a soldier. They probably don't act like one, 
and they don't take orders like one. But is the Department 
looking at, in terms of the near term, need for human beings, 
this group of folks that really don't look good in uniform and 
don't need to know how to fight other than with a keyboard 
and--or versus AI I think that I mentioned earlier?
    Dr. Singer. So on your first question on AI, I point to, as 
an example, at recent hacker convention, DARPA competition had 
AI competing to bug hunt, and it was won by one from Carnegie 
Mellon called MAYHEM, and it was able to take on a task that 
human hackers, bug hunters, it would take them a long period of 
time, and did it quite quickly.
    So the point I would make here is that much like, you know, 
you mentioned robotics and drones and conventional warfare, we 
have a couple of kind of disruptions potentially coming in the 
cyber conflict side. AI would be one, another would be quantum, 
where when I say disruption, it is not just when is it going to 
happen, but we don't yet know is it going to privilege the 
offense or defense, what are going to be the effects of it.
    So in my written testimony, I advocate that you should hold 
a classified hearing on trying to find out where do we stand in 
these technologies versus likely adversaries, because they are 
critical. We don't want to fall behind on them.
    On your question of people, the answer, to be blunt, is no. 
We have done a very good job of organizing existing talent 
within the military, be it an Active Duty or starting to retool 
the National Guard, but we don't have a means for pulling in 
people outside the military who are willing to serve but not to 
formally join or unable to because of some requirement. And 
that is why in the written testimony I propose a sort of series 
of actions and organizations that could help us do that better.
    Mr. Conaway. Dr. Libicki.
    Dr. Libicki. I just want to add one thing. It is important 
to get talent into the technical side of hacking and counter-
hacking, but from a military perspective, it is also important 
to have people who understand how offensive and defensive cyber 
warfare fits into all of the other elements of warfare so they 
can be presented in an integrated manner. And for that, I don't 
think you have much of an alternative but a militarily trained 
individual, whether an officer or enlisted.
    Mr. Conaway. Clearly, it is not either/or. It is both. 
Because the physical requirements to run a keyboard and a mouse 
pad are dramatically different than somebody who has got to 
even go downrange and run a keyboard.
    I appreciate your perspective, and I yield back.
    The Chairman. I would just note an editorial comment on the 
AI discussion. It seems to me that we are always a lot better 
at developing technologies than we are the policies on how to 
use them, and that certainly seems the case there.
    I would like to back up and maybe rehash a little bit some 
of the topics that you all have touched on.
    Starting with the role of the military to defend the 
country in cyberspace. If there were a bunch of bombers coming 
toward refineries in the Houston ship channel, we know what we 
would expect the U.S. military to do to defend that private 
infrastructure. If packets were coming through the internet 
against the same refineries, under the Obama administration, if 
it caused death or significant economic damage, I guess, not 
really defined, then the military could get involved to defend 
that private infrastructure. You have got to make judgment 
calls, all this is happening at the speed of light, et cetera.
    So I would just appreciate reflections from each of you on 
the appropriate role of the military in defending nonmilitary--
in defending the country, private infrastructure especially.
    Dr. Libicki. I think there are a lot of things that the 
military can do, but I think it is also--there are a lot of 
things the military cannot do, and a lot of the difference, by 
the way, between the two is the sort of a technical difference. 
Let me give you an example. Let us say we lived in a world 
where the technology of firewalls was good enough, and the 
economies of scales of firewalls were such that it made sense 
to have a national firewall. Right? You could say, well, that 
could be a role for the Department of Defense. It could be a 
role for another part of the Federal Government, et cetera. 
Let's say the Department of Defense, because it often takes 
classified information to make a firewall run well. Right? And 
if it turns out that that was a large part of the solution, 
there would be a strong argument for the military.
    But the state of firewall technology does not suggest a 
ground for that sort of optimism. There are--it doesn't defend 
against zero-days. It doesn't defend against built-in malware. 
It doesn't defend against encrypted stuff. And by the time you 
sort of do a positive and a negative, you end up saying, I 
don't think the firewall is going to get us there, and, 
therefore, I don't think whatever role is associated with 
running the firewall is going to get us there either.
    I don't think it is a question of, well, physical is going 
to be military and cyber is not going to be military, because 
there is a sort of existential difference between the two. I 
think it is a matter of what tools do you use and then how do 
you deploy those tools. And if the tools that you need to use, 
for instance, have a lot to do with architecture, have a lot to 
do with systems administration, have a lot to do with training, 
then the role for the Federal Government is correspondingly 
smaller.
    If, however, you are depending on barriers, if you are 
depending on classified intelligence, then the role of the 
military is larger. And it might be, for instance, that 20 
years from now, with the technology, that the role of the 
military is much larger than it is today because the tools are 
different. It is entirely possible that 20 years from now, the 
role would be smaller, because we are looking at a different 
set of tools entirely. Okay?
    It is not an ideological ipso facto issue. You have to 
follow the technology in order to think about roles and 
missions.
    The Chairman. Interesting. I want you all's perspective 
too. In addition, you have got to figure out who is doing it. 
Because if it is the most sophisticated sort of state actors, 
then it is pretty hard for anybody, other than our military, to 
defend against it. But I would be interested in you all's 
perspective on this.
    Dr. Singer. So I think it is interesting to use your 
example to look back at history. So we have the obvious, a 
bomber plane crosses into our territory, drops a bomb, military 
responsibility. But we had a real--fortunately, that never 
happened in World War II or ever. But we did have a real-world 
example in World War II where German submarines dropped off 
saboteurs, and the Navy was responsible for hunting down the 
German submarines. In the midst of an all-out national 
conflict, it was the FBI that was in charge of the saboteur 
hunting down.
    So I point to--you know, we have wrestled with these before 
in the physical domain. So I think when it comes to the 
questions of roles and responsibilities, the way we have 
divided out so far for the military makes a great deal of 
sense. It is very clear offensive action should be 
governmental, should be military responsibility.
    I would note, there's been a push recently for, hey, 
shouldn't the private sector be able to hit back on its own. I 
would argue that is a very bad idea. It is a bad idea for the 
same reason that vigilantism in general is a bad idea. Makes 
you feel good about yourself, it doesn't actually do anything 
about the effect. When you move into politics, if we have got 
private actors out there hitting foreign entities, they might 
think it is a U.S. state action.
    So that is clearly military. Defend its own networks, 
again, clearly military, pulling in aid from the private 
sector. Where it gets questionable is in this what should the 
military do to aid the private sector.
    And as I think Jay noted and probably will note, it is not 
just a question of what kind of roles and responsibilities. 
There is also the hard reality that the private sector knows 
its own systems better. So it is going to be the one best 
equipped to defend itself, set aside all of the other kind of 
appropriate questions.
    So, for me, the parallel here is just like when there is a 
natural disaster or some other thing, the military should be on 
call to aid. When it moves into a situation of war, where it is 
an act of violence, political in nature, now we have moved into 
there is a clear role for the military. So they should be able 
to aid if they are called upon by other agencies, but if we are 
short of an act of war, I don't want them fiddling around with 
power grid networks or the like.
    The Chairman. Okay. And, Mr. Healey, as you answer, I just 
want to add another layer here. So according to press reports, 
a foreign actor destroyed computers owned by Saudi Aramco. Is 
that destruction of property that justifies this kind of added 
layer of military involvement if something like that were to 
happen here?
    Mr. Healey. Without a doubt. I used to be the vice chairman 
of a group called the Financial Services Information Sharing 
and Analysis Center [FS-ISAC] that coordinates response and 
information within the finance sector. And there is a bunch of 
military help that I could have used, but it is not generally 
the military help that we think. I would have loved to have had 
just some senior NCOs [noncommissioned officers] or good junior 
officers that knew how to respond to incidents and could keep 
their head so that when we had a bad incident, that they could 
help us get ready for the response and what was going to happen 
next.
    I could easily imagine a situation where attacks against 
the finance sector, where we have to call for fires, where we 
have--the banks have to say, we are not going to be able to 
open for business tomorrow unless we get this taken care of. 
How are we going to do that, that call for fires? The private 
sector is the supported command. We need to start thinking 
about this.
    On the finance sector, is finally starting to push an issue 
of how do we get our intelligence requirements listened to? We 
are the ones that are on the front line. How can we have some 
communication with the intel community just like any other 
customer?
    To me, this is so difficult, because the attacks have 
largely been so inconsequential, not causing death and 
destruction. So I like to step back and say, well, imagine if 
we are not in a gray area. Imagine it is black and white. 
People have--Americans have just died because of foreign cyber 
attack. In the Aramco case, large-scale attacks against our 
refineries. What do the American people, what does the American 
President now looking to, to the military? It is not support to 
civil authorities. We are going to be looking for that military 
to step up.
    And the last thing I will mention is, in historical 
analogy, during the Battle of Britain, they invented something 
called the Dowding System, where they were having to track what 
incoming fighters, what is the radar telling us, which fighters 
are we going to divert. And so I see us needing a modern 
version of this Dowding System that includes the private 
sector. So that when you have these kinds of attacks, we have 
got information that is coming in and we can figure out how to 
handle those defenses.
    I don't believe that is probably going to be at the NCCIC 
[National Cybersecurity and Communications Integration Center], 
at DHS where it is right now, and it might not even be at Cyber 
Command. We might need a more American model that brings 
together a better partnership.
    The Chairman. One other thing that occurs to me as you were 
talking is, we are going to--if that is the case, we are going 
to have to have a government decision-making ability in 
appropriate time. You cannot take every one of these cases to 
the NSC [National Security Council] and deliberate on it for a 
month. Maybe we are moving more in that direction, but it has 
obviously been a problem before.
    Let me yield to the distinguished ranking member of the 
Emerging Threats Subcommittee, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
for convening this panel. It has been a great discussion. I 
wish I had been here for all of it. I was at a Homeland 
Security briefing on cybersecurity, on this topic as well. So--
but I appreciate all of the contributions you all have made in 
various aspects to this dialogue and the work you are doing in 
this field.
    Dr. Libicki, let me start with you. What metrics do you 
believe we should have in place to determine if cyber 
operations, both offensive and defensive, are effective or not?
    Dr. Libicki. Well, that is a very interesting question, 
because metrics are one of the hardest things in security. 
Right? The problem with a lot of defense is if the other side 
is only interested in stealing your information, and you don't 
know about it, you think you are in good shape, when, in fact, 
you are not in good shape.
    One of the things that our intelligence community and our 
law enforcement community has gotten some traction on is trying 
to figure out, by looking at the other side, what people have 
stolen from our own side in terms of--in terms of how good our 
defense is. In terms of our offense, that--some of it you can 
do directly. If you maintain a presence on the other person's 
network and you want to attack it in a certain way, as long as 
that attack doesn't kick you out of that network, you have a 
fairly good platform for how you see the other side react.
    But, in general, I think when you are judging offense, you 
have to take a look back and say, what is the broader overall 
military effect that we want to have and how do we measure that 
particular effect, not merely the cyber effect? I think there 
is often a tendency--particularly because cyberspace operations 
are so technical--to measure the quality of cyberspace 
operations and did we move the ones and zeros without measuring 
the bigger picture, did it help us win the battle/campaign/war?
    Mr. Langevin. Anybody else?
    Dr. Singer. I would add in a couple of other elements. When 
you are thinking about on the offensive side, we have typically 
framed it in terms of classic military operations where, 
clearly, many, if not most, of our adversaries are looking at 
them through the lens of influence operations. So it is not how 
many websites did I take down or your access to GPS or the 
like, but it is how did I shape the overall environment? How 
did I, to put it bluntly, hack your hearts and minds? And that 
is something that we need to pay attention to both in adversary 
hands and ours.
    The second is on the defensive side. When we are looking 
for metrics, again, they are not just sort of the obvious ones 
of detecting attacks. What we are seeing in the corporate 
sector moving more to this resilience strategy is--a key is 
recovery time. So how long after I have detected--how long 
after I have been knocked down do I get back up quickly? And 
this points to, again, the concept of deterrence by denial. If 
you have got good recovery time, then you have nullified what 
the attacker did to you.
    Mr. Langevin. Thank you. Yes, it is one of the things I am 
wrestling with right now is, you know, how do we assess 
metrics. And we have the NIST [National Institute of Standards 
and Technology] standards, for example, which are important, 
but, you know, the degree to which they are being adopted and 
if they are being adopted, is the framework effective? We don't 
have any sufficient metrics right now to measure that.
    So let me ask, while I have--so I have a little bit of time 
left, to all of our witnesses. In your opinion, what are the 
greatest policy challenges that the Department is facing with 
respect to military operations in the cyber domain?
    Dr. Libicki. I would say that the greatest challenge the 
DOD faces is understanding its own vulnerability and 
understanding its own vulnerability on an end-to-end basis.
    Mr. Healey. I think that is a fine answer. I am still--I 
struggle when I talk to DOD officers and officials, and they 
seem pretty uncurious about how tomorrow's cyber conflict might 
look different than yesterday's. They are so deep down into 
looking at the ones and the zeros and talking about network 
speed and hazy borders that I would love their challenge to 
pull out. I mean, we are so busy doing the destroyer 
engagements, we are not thinking about fleet actions or what 
actually winning is going to mean in this field.
    Dr. Singer. I would echo the concept here, again, of while 
it is almost natural and in terms of identity and thinking to 
focus on the offensive, on the how do I use this, how do I take 
it to the enemy, the reality is that resilience is the side, 
that building up DOD resilience would give us a greater 
advantage. It is just, to put it bluntly, not as sexy, and it 
is not something that has the same appeal.
    The second to add to this would be multidomain operations, 
understanding how fires from one domain might affect another 
domain. And a key element of this is recognizing that a lot of 
what we are talking about is not just cybersecurity but moves 
into the space of electronic warfare [EW] where adversaries, in 
particular Russia, have been making deep, deep investment in 
that. And as they showed off in Ukraine, particularly in the 
ground forces side, they are probably better than us.
    And this is an area where, again, we may need to think 
about, you know, coming off of decades-plus of 
counterinsurgency, have we shrunk too much our electronic 
warfare capability, not just building out cybersecurity 
capability, but do we need to build up EW side too?
    Mr. Langevin. Thank you all very much.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman, for convening this 
panel and for your leadership of our committee.
    My question is for Mr. Healey. I was very pleased to read 
in your testimony that the center of U.S. cyber power is in 
Silicon Valley and not in Fort Meade. Of course, I represent 
that area, and that is what the many folks in the Valley think.
    My question for you concerns coordination. The reality is, 
today, we have many private companies that have their own basic 
cybersecurity defense, and we would never have that each 
company have their own private military. Is there a way to have 
information sharing or a platform between these companies? Is 
there a way to have information sharing between them and the 
government in a way that doesn't compromise classified 
information?
    Mr. Healey. It is a great question, and I am very happy 
that I had a chance to come back and add some details to these 
remarks.
    Some of those already exist and are relatively well funded. 
We can still build capability. Others don't exist, and we hope 
that they will stand up. Others are in place but relatively 
starved of resources.
    I have been, as I mentioned, the vice chairman of the FS-
ISAC. And we only shared information and coordinated response 
for people that paid to be members; largely, that meant Wall 
Street. We got about a $2 million grant from Treasury to re-up 
our technology, but we had to include all 13,000-plus financial 
institutions in the United States. And now the FS-ISAC is 
winning awards for being the best information-sharing and 
response organization. I think that is the best $2 million that 
we spent in U.S. Government on cyber ever.
    Compare that. DHS right now is spending millions of dollars 
a year on a vulnerability database that is in trouble right 
now. One of my colleagues was running an open source version of 
that that had something like four times as many vulnerabilities 
in it for $10,000 a year, and they ended up having to close up 
shop because they were starved of resources. So there is so 
much that is happening out there, and we don't necessarily have 
to recreate that within the Department or within the 
government, because it already exists.
    Others that I will mention--and I am sorry, I won't break 
out the acronyms in the interest of time. NANOG [North American 
Network Operators Group] is an operating group that helps 
coordinate the main network service providers. NSP-SEC [Network 
Service Provider-Security] does the same and was critical in 
the response to the denial of service attacks on Estonia. And 
there are many of these groups out there that are already 
helping. And I think with some small targeted grants like the 
FS-ISAC could, we are talking about a few million dollars, they 
might be able to build a secretariat, they might be able to 
include new technology, and I think really make a difference. 
You saw this with the defense industrial base sharing where 
just saying, go ahead, you can share, and you won't get an 
anti--in anticompetitive trouble led to significant 
differences.
    Mr. Khanna. I would love to follow up with you offline and 
get your thoughts on this. But if you were to prioritize, then, 
one or two things that we on the committee could do, what would 
those be in terms of the funding?
    Mr. Healey. In this area? The first thing I would want to 
do, and this is this committee but also maybe Homeland 
Security, is have the executive branch go through each of 
several different kinds of the main incidents that we faced--
botnet takedown; denial of service attack; major malware 
spread, like Conficker; counter-APT [advanced persistent 
threat]--and go through in a disciplined way, who took what 
actions, who took what decisions based on what information, and 
what happened next.
    I think if we went through that process in a disciplined 
way--include decision modelers in that. I mean, again, we are 
talking about a few million dollars. And you come out with that 
and now you know the actual decision makers, you know what the 
information sharing requirements are. We can build our cyber 
incident response plan around that, and then we can help use 
grants, if necessary, to start building the capability where it 
is needed to make sure that is going to happen better next 
time. Thank you.
    Mr. Khanna. Thank you. Well, thank you for your testimony, 
and I hope we can work with you on these issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I want to go back to resilience 
for just a second. Now, you all talked a lot about it. 
Obviously, the drive for the Department of Defense--and you 
have all mentioned, you know, an Internet of Things; everything 
is connected; every platform is a sensor--so to increase your 
capability. And yet, as we think about the Russian hacking, one 
of the reasons people had confidence in our voting system is 
because every State was different, and so that diversity, the 
fact that they were not all linked together, was part of the 
resilience that made it much harder for any actual changes to 
happen in the voting.
    So how do you balance that? You want to be more effective. 
We don't have enough money, and yet does not this drive to have 
everything connected reduce our resilience?
    Dr. Singer. There are a couple of things to note. I mean, 
we should be clear that--well, I will put it this way. Part of 
how you find that optimal mix of--what you are laying out is 
essentially kind of both diversity but new and old, and the 
constant story again, whether it is your personal cybersecurity 
or DOD cybersecurity is this battle between convenience, 
effectiveness, and security, and that is the same--so you find 
that optimal space, frankly, by doing, by training, by testing.
    I would use the example of the election side, though, to 
illustrate this. There has been testing done that shows, yes, 
voting machines are vulnerable. It is not that the diversity 
kept us safe. It is that, in the 2016, the threat actor didn't 
go after them. The threat actor went after not the voting 
machines but the voting public, and this is again a lesson to 
the DOD side, is it is not always about how does my system 
work; it is about the humans behind them, be it their hearts 
and minds and sentiments or their awareness or the like.
    So, you know, we shouldn't tell ourselves that we have been 
made secure because an actor didn't go after something. The 
actor went after something else and was effective at it and, 
now, again, are going after other allies. They are not 
targeting, as far as we are aware, the French voting machines 
or the German voting machines. They are targeting the voting 
public and getting potentially maybe more out of it.
    Mr. Healey. And I think it is a great point, and I really 
want to associate myself with Dr. Singer's point in this and 
your previous question, because to me, when I hear the military 
talking about cyber and the third offset, I get really, really 
worried because it seems, from a lot of my colleagues that I 
hear from, they are thinking that that means more offense and 
offense is going to be how we can use cyber as part of the 
third offset to move in a way that our ally--that our 
adversaries can't.
    I think you have hit exactly on resilience is the way that 
we can do that. Having better cybersecurity so that we can have 
deterrence by denial and they are not going to be able to 
affect us is a critical part of that. I have been very 
heartened to see what has been happening in the military the 
few years where they are saying, ``Let's operate--let's unleash 
the red teams and exercise this so that they can really show us 
what they can do and really affect the exercise,'' whereas, 
normally, you would not let them affect the exercise goal.
    Just like the Air Force used to make sure pilots could 
operate through jamming, they are now starting to say, what can 
we do when we don't have the internet? I think that kind of 
resilience is really where we are going to have the third 
offset.
    The Chairman. I agree completely on exercising when your 
networks go down or something; that is true. And I just mention 
among the hearings we are planning in the future is one that 
looks more broadly at, however you want to describe it, hybrid 
warfare, attempts to influence policy short of traditional 
methods of warfare. Certainly what the Russians are doing are 
some examples. Chinese are using their economic power. Others--
I mean, this is one of our key challenges, I think, which you 
all have touched on, but we don't have time to get in.
    Thank you all for being here. It has been very helpful. The 
hearing stands adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

      
=======================================================================

                           A P P E N D I X

                             March 1, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2017

=======================================================================

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. Background: How are forensics done in a timely manner 
to determine if the attack was nonstate, state actor, or local 
terrorist? Once identified by DOD, what authorities are required to 
conduct a mission to stop the attack, mitigate it in the future, and/or 
attribution of the origin of the attack.
    Question: What is USCYBERCOM doing to counter our adversaries 
before, during, and after an attack or probe on DOD networks?
    Dr. Singer. There are a wide variety of forensics, some of which 
involve monitoring your own network activity, other's gaining access to 
and monitoring potential attacker networks, and even the use of 
information outside cyberspace (HUMINT for example). The key is to 
establish awareness of the attack as rapidly as possible which then 
allows an appropriate response. To some attacks, you might simply want 
to close off access. Others, you might want to feed them false 
information. And still others might be an act of war that require 
response in realms beyond cyberspace.
    CYBERCOM engages in and prepares for these range of scenarios. A 
key, as in my written testimony, is more exercises/wargames that stress 
test our own systems, explore new doctrines. Better to find 
vulnerabilities or discover new methods in the practice than in the big 
game.
    Mr. Franks. Background: Industrial control system (ICS) is a 
general term that encompasses several types of control systems and 
associated instrumentation used in industrial production, including 
Supervisory Control and Data Acquisition (SCADA) systems, distributed 
control systems (DCS), and other smaller control system configurations 
such as programmable logic controllers (PLC) often found in the 
industrial sectors and critical infrastructures. Since cyber is a man-
made domain of operations, DHS should be responsible for ICS/SCADA 
attacks as they are in industry. However, since cyber happens so fast, 
attribution can be a challenge to determine if this is really a U.S.C. 
Title 10, 18, 32 etc... lane of responsibility. So imagine a bomber 
from a state actor was heading to the U.S. with intent to destroy an 
oil refinery. Who should respond? DHS or DOD?
    Question: Who do you believe is responsible to respond to SCADA/ICS 
network attacks? If DHS, what is USCYBERCOM or DOD doing to facilitate/
support the operations as all data transverses over the same IP 
provider?
    Why would DHS be responsible for defense or counter measure against 
a state actor, wouldn't DOD be planning those actions?
    Dr. Singer. ICS is used everywhere from U.S. navy ships to traffic 
lights to energy plants to toymakers. The defense of such systems would 
be shared across the operators of the systems, supported by legal 
authorities (DHS etc) and, if moving into the realm of state attack in 
the context of war, the DOD. For example, DHS and other government 
agencies can't/shouldn't operate a toymaker or oil refinery's SCADA 
system on its own, but it should be enabling the operators to better 
defend themselves in realms that range from information sharing, 
standards setting, threat intelligence etc, as well as incentivizing 
the market via insurance etc. In turn, if a state actor did attack such 
a system with the intent of making war (physical damage etc), we 
wouldn't want the toy or oil company to retaliate, but the U.S. 
military and other relevant agencies, with our means not limited to 
only cyber retaliation.
    Mr. Franks. Background: Since 1988 each of the theater, unified 
commands have established a separate Special Operations Command (SOC) 
to meet its theater-unique special operations requirements. As 
subordinate unified commands, the theater SOCs provide the planning, 
preparation, and command and control of SOF from the Army, Navy, and 
Air Force. They ensure that SOF strategic capabilities are fully 
employed and that SOF are fully synchronized with conventional military 
operations, when applicable.
    SOCs, established as sub-unified commands of the combatant unified 
commands, are the geographic Combatant Commander in Chiefs (CINCs) 
sources of expertise in all areas of special operations, providing the 
CINCs with a separate element to plan and control the employment of 
joint SOF in military operations. Additionally, SOCs provide the 
nucleus for the establishment of a joint special operations task force 
(JSOTF), when a joint task force is formed. There are six SOCs 
supporting geographic CINCs worldwide.
    Question: If the SOCOM model has worked for years with proven 
performance in geographic AORs, why hasn't USCYBERCOM moved out to 
support the warfighter in the same manner?
    Dr. Singer. As a young organization, with a unique positioning vis 
STRATCOM and NSA, U.S. CYBERCOM has not been structured of empowered to 
act like a full equivalent of SOCs as you lay out. I do believe that it 
is evolving towards this model (vs a TRANSCOM-style or separate service 
future) and Congress would do well to support studies on what aspects 
of the model are applicable or not, and what challenges that the SOCOM 
organization has faced (particularly in its cohesion with theater 
command) might be navigated as CYBERCOM moves forward.
    Mr. Franks. Background: How are forensics done in a timely manner 
to determine if the attack was nonstate, state actor, or local 
terrorist? Once identified by DOD, what authorities are required to 
conduct a mission to stop the attack, mitigate it in the future, and/or 
attribution of the origin of the attack.
    Question: What is USCYBERCOM doing to counter our adversaries 
before, during, and after an attack or probe on DOD networks?
    Dr. Libicki. Attribution is the process of narrowing down who did 
what. In the United States, it uses a combination of intelligence 
(apparently, we track certain cyber groups) and forensics. The latter 
uses information from the attack such as the IP addresses and malware 
used, social engineering tricks, and nation-linked indicators (such as 
language)--to make an educated guess about who did it. Much of it is 
quick; some of it is slow and depends on the flow of future 
information: e.g., an attack that we know was carried out by X leaves 
indicators which then match the indicators of an earlier attack which 
can then be attributed. Some recent trends--notably the use of black-
market tools--are troubling for attribution because they could be 
wielded by anyone.
    USCYBERCOM's ability to do anything prior to an attack largely 
depends on its foreknowledge of particular hacker groups (and would 
thus be of limited use against an unknown hacker). The best we can hope 
for--if the hackers themselves are unaffected by whatever the United 
States does (e.g., are not arrested)--is to be able to postpone an 
attack and force the group to develop new accesses as well as new tools 
or techniques. At best, this buys six months (taking down a botnet can 
provide somewhat longer relief but that's a different form of 
cyberattack). At worst, the attackers have been dealt a minor 
inconvenience, and the better hackers have backup plans in case their 
infrastructure (e.g., their favorite IP sites) are discovered and 
compromised. *Please note that I have never worked for CYBERCOM, and 
any statements about them are based on my understanding of unclassified 
information.
    Mr. Franks. Background: Industrial control system (ICS) is a 
general term that encompasses several types of control systems and 
associated instrumentation used in industrial production, including 
Supervisory Control and Data Acquisition (SCADA) systems, distributed 
control systems (DCS), and other smaller control system configurations 
such as programmable logic controllers (PLC) often found in the 
industrial sectors and critical infrastructures. Since cyber is a man-
made domain of operations, DHS should be responsible for ICS/SCADA 
attacks as they are in industry. However, since cyber happens so fast, 
attribution can be a challenge to determine if this is really a U.S.C. 
Title 10, 18, 32 etc... lane of responsibility. So imagine a bomber 
from a state actor was heading to the U.S. with intent to destroy an 
oil refinery. Who should respond? DHS or DOD?
    Question: Who do you believe is responsible to respond to SCADA/ICS 
network attacks? If DHS, what is USCYBERCOM or DOD doing to facilitate/
support the operations as all data transverses over the same IP 
provider?
    Why would DHS be responsible for defense or counter measure against 
a state actor, wouldn't DOD be planning those actions?
    Dr. Libicki. Everything depends on what the response is. DOD gets 
the call to prevent bomber aircraft from getting to the refinery 
because of how bombers are engaged (e.g., with other aircraft, or by 
anti-aircraft systems). DHS or local police would get the call to 
prevent a terrorist from getting to the refinery because such a 
terrorist would be engaged by border enforcement and/or police action. 
A similar logic would dictate how a hacker would be stopped from 
attacking SCADA/ICS networks. If the particulars of exploit are 
understood, it can be stopped by the defensive actions of the network 
owners; DHS may play a role but only insofar as its advice works and is 
considered useful and actionable. If the origin but not the particulars 
of the exploit are understood, it may be possible to block the relevant 
bytes at the border (or would be if the legal authority existed and the 
ISPs were equipped to detect and sinkhole the relevant bytes). If the 
origin or a waypoint of the attack were known but nothing else, there 
is the possibility of covert action by CYBERCOM or the CIA against the 
relevant node (although as the last answer indicated, that only buys 
time and not much. If the author of the exploit were identified but 
nothing else was known the, author may be subject to police action 
(especially if the author sat in friendly territory). If the author sat 
in a hostile country, it may be up to the State Department to persuade 
the country to yield the individual. If nothing else worked, and there 
was no other way to head off the attack (and, in fact, there often are 
many other ways), the author could be militarily attacked but that is 
tantamount to waging war on another country--which carries risks unless 
the country is essentially ungoverned or already a war zone (but these 
are qualities that make it difficult to carry out cyberattacks from 
such locations).
    Mr. Franks. Background: Since 1988 each of the theater, unified 
commands have established a separate Special Operations Command (SOC) 
to meet its theater-unique special operations requirements. As 
subordinate unified commands, the theater SOCs provide the planning, 
preparation, and command and control of SOF from the Army, Navy, and 
Air Force. They ensure that SOF strategic capabilities are fully 
employed and that SOF are fully synchronized with conventional military 
operations, when applicable.
    SOCs, established as sub-unified commands of the combatant unified 
commands, are the geographic Combatant Commander in Chiefs (CINCs) 
sources of expertise in all areas of special operations, providing the 
CINCs with a separate element to plan and control the employment of 
joint SOF in military operations. Additionally, SOCs provide the 
nucleus for the establishment of a joint special operations task force 
(JSOTF), when a joint task force is formed. There are six SOCs 
supporting geographic CINCs worldwide.
    Question: If the SOCOM model has worked for years with proven 
performance in geographic AORs, why hasn't USCYBERCOM moved out to 
support the warfighter in the same manner?
    Dr. Libicki. When CYBERCOM started up, its Commander (GEN 
Alexander) argued that all the forces belonged to him and he would 
direct their use. Over time the relationship between particular mission 
teams and the regional CINCs have grown closer to the SOC model. I 
think that trend is continuing. But there are two reasons why they may 
never be the same.
    First, offensive cyber operations often rely on a bag of tricks 
(some of which are zero-day exploits). Once these tricks are exposed, 
they cannot be easily reused. Thus there may have to be some central 
allocation of these tricks so that high-value tricks are not used for 
low-value objectives. This use-once feature does not apply to special 
operations quite so much. Similarly, there is a lot of common learning 
that has to happen and a unified organization provides a basis for such 
learning.
    Two, getting the requisite access to a target system can take a 
long time. There is no equivalent of kicking down the door. Thus, teams 
have to be dedicated to targets well in advance of when these targets 
are attacked. The bullpen model--here are some forces, what would you 
like them to do for you today--does not work very well for cyberspace 
operations.?
    Mr. Franks. Background: How are forensics done in a timely manner 
to determine if the attack was nonstate, state actor, or local 
terrorist? Once identified by DOD, what authorities are required to 
conduct a mission to stop the attack, mitigate it in the future, and/or 
attribution of the origin of the attack.
    Question: What is USCYBERCOM doing to counter our adversaries 
before, during, and after an attack or probe on DOD networks?
    Mr. Healey. I defer to USCYBERCOM for the particulars.
    Mr. Franks. Background: Industrial control system (ICS) is a 
general term that encompasses several types of control systems and 
associated instrumentation used in industrial production, including 
Supervisory Control and Data Acquisition (SCADA) systems, distributed 
control systems (DCS), and other smaller control system configurations 
such as programmable logic controllers (PLC) often found in the 
industrial sectors and critical infrastructures. Since cyber is a man-
made domain of operations, DHS should be responsible for ICS/SCADA 
attacks as they are in industry. However, since cyber happens so fast, 
attribution can be a challenge to determine if this is really a U.S.C. 
Title 10, 18, 32 etc... lane of responsibility. So imagine a bomber 
from a state actor was heading to the U.S. with intent to destroy an 
oil refinery. Who should respond? DHS or DOD?
    Question: Who do you believe is responsible to respond to SCADA/ICS 
network attacks? If DHS, what is USCYBERCOM or DOD doing to facilitate/
support the operations as all data transverses over the same IP 
provider?
    Why would DHS be responsible for defense or counter measure against 
a state actor, wouldn't DOD be planning those actions?
    Mr. Healey. Answer 1: The first response will always be the private 
sector and only the private sector. Neither DOD nor DHS have any 
capability to respond in any kind of timely way and neither additional 
authorities nor money will make any difference.
    DHS can help ensure coordination happens and has some role, but it 
is as a supporting actor, one among many in an ensemble cast, not the 
leading role.
    Answer 2: After the first response, which is only the 
responsibility of the private sector, then the U.S. government does 
have more of a role. If it comes to counter measures, then DOD ought to 
plan and execute those actions.
    I recommend each critical infrastructure sector should have one 
military unit, chosen from the Guard or Reserves, which specializes in 
that sector and can help this coordination. For example, an Air Guard 
or Reserve squadron from Texas (where many cyber units are located) 
could specialize in the oil and gas sector. Another unit, perhaps from 
the Army Guard or Reserve, could specialize in the finance sector, and 
work with that sector's organizations, like the Finance Sector 
Information Sharing and Analysis Center (FS-ISAC).
    Mr. Franks. Background: Since 1988 each of the theater, unified 
commands have established a separate Special Operations Command (SOC) 
to meet its theater-unique special operations requirements. As 
subordinate unified commands, the theater SOCs provide the planning, 
preparation, and command and control of SOF from the Army, Navy, and 
Air Force. They ensure that SOF strategic capabilities are fully 
employed and that SOF are fully synchronized with conventional military 
operations, when applicable.
    SOCs, established as sub-unified commands of the combatant unified 
commands, are the geographic Combatant Commander in Chiefs (CINCs) 
sources of expertise in all areas of special operations, providing the 
CINCs with a separate element to plan and control the employment of 
joint SOF in military operations. Additionally, SOCs provide the 
nucleus for the establishment of a joint special operations task force 
(JSOTF), when a joint task force is formed. There are six SOCs 
supporting geographic CINCs worldwide.
    Question: If the SOCOM model has worked for years with proven 
performance in geographic AORs, why hasn't USCYBERCOM moved out to 
support the warfighter in the same manner?
    Mr. Healey. My apologies, I am not aware of how USCYBERCOM has 
organized itself in this regard and the reasons why. I defer to them 
for the particulars.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. When we talk about cyber warfare, naturally, we tend 
to focus on where the threats are. In the Asia-Pacific, that means 
China, North Korea, and to a lesser extent, Russia. However, we rarely 
focus on our allies--nations we can partner with in the cyber domain to 
build capacity, share information, and mutually defend each other. Can 
you speak to how we're cooperating with our allies on cyber warfare, 
particularly Asia-Pacific nations like Japan, South Korea, and 
Australia?
    Dr. Singer. We have various levels of both information sharing and 
agreements with our partners in Asia, with Australia having the added 
link of the ``5 Eyes'' participation. Two key areas to enhance are 1) 
aligning our norm building, so that it is not each country individually 
pushing for action by an adversary state, but multilateral and global 
alliances, and 2) joint military training, as adversaries can/will seek 
to exploit alliance vulnerabilities and seams.
    Ms. Hanabusa. When we talk about cyber warfare, naturally, we tend 
to focus on where the threats are. In the Asia-Pacific, that means 
China, North Korea, and to a lesser extent, Russia. However, we rarely 
focus on our allies--nations we can partner with in the cyber domain to 
build capacity, share information, and mutually defend each other. Can 
you speak to how we're cooperating with our allies on cyber warfare, 
particularly Asia-Pacific nations like Japan, South Korea, and 
Australia?
    Dr. Libicki. My best understanding is that there is a lot of 
interchange among all three Pacific allies, but they are better 
characterized as from time-to-time rather than day-to-day. As for 
defense, there is a large and growing world of contractors whose advice 
is probably as good as and sometimes better than what is available from 
allies' military forces or other employees. When it comes to offense, 
however, security classification levels are very high; we probably 
share a lot more with Australian (a Five-Eyes member) than we do with 
Japan and South Korea.
    Ms. Hanabusa. When we talk about cyber warfare, naturally, we tend 
to focus on where the threats are. In the Asia-Pacific, that means 
China, North Korea, and to a lesser extent, Russia. However, we rarely 
focus on our allies--nations we can partner with in the cyber domain to 
build capacity, share information, and mutually defend each other. Can 
you speak to how we're cooperating with our allies on cyber warfare, 
particularly Asia-Pacific nations like Japan, South Korea, and 
Australia?
    Mr. Healey. There are excellent stories to tell here, in quiet 
diplomacy, sharing, and cooperation with key nations, including those 
in the Asia-Pacific region. The Departments of Defense, State, and 
Homeland Security and the DNI can give you more detailed answers, but 
it is worth noting we've got long-standing signals intelligence 
relationships with all three of these nations, agreements which have 
extended into cyber capabilities. In addition, the United States has 
held extensive bilateral agreements with these countries, in addition 
to India, and works closely with Singapore. Perhaps more important, 
U.S. companies work extensively with their subsidiaries and peers in 
these countries, ensuring that attacks are prevented and stopped, at no 
cost to governments (and with no arguments about authorities).
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. Cyberspace has been called the fastest evolving 
technology space in human history, both in scale and properties. The 
United States was the victim of great exploitation of this technology 
realm in the 2016 election, and in your testimony you call it ``the 
most important cyber-attack so far in history.'' If our cyber systems 
do not out-perform those of our adversaries, our national power is at 
risk in all of the domains in which we operate. What specifically must 
the United States do, that we are not yet addressing, to deter 
adversaries in this complex threat environment, and how should we 
respond to those who aim to meddle in it?
    Dr. Singer. In my written testimony I identified 30 specific and 
non-partisan actions that the Congress could take to better protect the 
nation. Available at: http://docs.house.gov/meetings/AS/AS00/20170301/
105607/HHRG-115-AS00-Wstate-Singer
P-20170301.pdf
    If we do not better respond to Russia's operations, we undercut any 
future cyber deterrence.
    Ms. Rosen. Is our cyber force structured for rapid response to meet 
national requirements and combatant commander needs, or are we mired by 
the bureaucracy of a NSA and CYBERCOM dual-hat command?
    Dr. Singer. The time has come to establish Cyber Command's long-
term status and disentangle the ``dual hat'' leadership structure with 
the National Security Agency. These two valuable organizations work in 
the same realm, but they must reflect different organizational culture, 
goals, and processes. Of note, among the original rationale for this 
``dual'' structure was concern that the leadership of Cyber Command 
would not have enough stature with Congress; instead, the post-Snowden 
debates have meant that Congress has more often become interested in 
their NSA role.
    Ms. Rosen. How does our cyber apparatus differ from those of our 
state-adversaries and allies? What technologies are they using and how 
are they employing them?
    Dr. Singer. There are some 100 plus nations that have cybersecurity 
organizations of some kind, parallel to the U.S. Cyber Command. They 
range in their funding, number of personnel, etc. but one of the most 
noted is how they make use of entities beyond government. The U.S., for 
instance, tends to rely on private contracting companies, while Russia, 
as a point of comparison, has made use of criminal networks and China 
of university linked cyber militia. As I submitted in my testimony, the 
Estonian model of better leveraging civilian expertise is an apt model 
for the U.S.
    Ms. Rosen. What additional efforts should we be making to protect 
against hacking? Do you see an obvious action that Congress should 
take?
    Dr. Singer. In my written testimony I identified 30 specific and 
non-partisan actions that the Congress could take to better protect the 
nation http://docs.house.gov/meetings/AS/AS00/20170301/105607/HHRG-115-
AS00-Wstate-SingerP-20170301.pdf
    Ms. Rosen. How is attribution possible without revealing sources 
and methods of U.S. cyber capabilities?
    Dr. Singer. Full sources and methods will not be able to be 
disclosed in every case. In some situations, the information will only 
be able to shared at different levels of clearance or with some 
information removed. But this should not limit all attribution. A good 
parallel is the 2011 alleged Iranian plot to conduct an attack inside 
the U.S. The U.S. government attributed it to Iran but did not disclose 
ALL our sources and methods. Yet the House still voted for sanctions. 
As I point out in my testimony, the case of Russia's attacks on U.S. 
targets is backed by an extensive and wide range of both U.S. 
government but also private company information. The question now is 
not whether Russia did it, but how will we respond?
    Ms. Rosen. Is our cyber force structured for rapid response to meet 
national requirements and combatant commander needs, or are we mired by 
the bureaucracy of a NSA and CYBERCOM dual-hat command?
    Dr. Libicki. The primary barrier to a rapid response is not our 
inability to make decisions so much as it is the difficulty in 
acquiring and maintaining access to systems that we might want to 
attack via cyberspace. A large part of the reason that cyberattacks 
were not used against Libya is that prior to the Arab Spring there was 
no good reason to penetrate Libyan air defenses to create a capacity 
for some later cyberattack. Once such a reason existed, there was not 
enough time to exploit such penetrations for effect before other faster 
means could be brought to bear.
    Ms. Rosen. What additional efforts should we be making to protect 
against hacking? Do you see an obvious action that Congress should 
take?
    Dr. Libicki. As a general rule, the primary defenses against 
cyberattack are those undertaken by network/system owners. For non-
government systems, the Government is on the outside looking in. It can 
provide assistance, but cannot guarantee that such assistance will be 
used (or if used, used effectively). But there are exceptions. 1. 
Certain systems, notably the electric grid, should be isolated from the 
outside world (and not just put behind firewalls, many of which are 
permeable). Furthermore, they should be able to pass penetration tests 
to indicate they are, in fact, isolated. Legislation to that end, as 
long as it is temporary (so that the result can be evaluated) and 
limited to the electric grid (it helps to take one step at a time) 
could be useful. 2. DDOS attacks are a unique concern. Unlike with most 
cyberattacks, they do not arise because of something the victims 
themselves did wrong. ISPs should be given some authority and incentive 
to detect and sinkhole the traffic that constitutes a DDOS attack--but 
exactly how is something I'm still wrestling with.
    Ms. Rosen. Is our cyber force structured for rapid response to meet 
national requirements and combatant commander needs, or are we mired by 
the bureaucracy of a NSA and CYBERCOM dual-hat command?
    Mr. Healey. I suspect the answer you get from U.S. Cyber Command is 
that they want to be escalated so they be better structured for rapid 
response. This is probably true but certainly overstated.
    It is worth noting the DOD first created in 1998 a special joint 
command with the authorities to counter attacks and probes on DOD 
networks. It has been therefore nearly 20 years and yet DOD still has 
similar problems. I'm not convinced elevation to a unified command will 
resolve these issues any more than the escalation of this from a two-
star to three-star command (in 2004), or from three-stars to four (in 
2010).
    Moreover, some friction is actually beneficial. Cyber conflict is 
extremely complex, and is fought in, through, and with the products of 
American technology companies on which we all depend for innovation and 
prosperity. Attacks can cascade in unpredictable ways. In air warfare, 
we have learned that if we push the rules of engagement too low, we end 
up bombing Afghani weddings. We should be similarly careful here.
    Further, the use and stockpiling of capabilities can cause outrage 
in citizens who feel their privacy and trust is being violated. We 
should be wary of taking away too much of the mire or the Congressional 
oversight function will be overwhelmed with incidents and complaints.
    Ms. Rosen. Discuss the role of industry in cyber warfare and cyber 
operations. What is the relationship between the government and these 
private companies, and privacy?
    Mr. Healey. Americans seem to trust private sector companies with 
their information far more than they do the U.S. government. (Note, 
this tends to be the opposite in Europe.) This can be a strength for 
cyber defense, as cybersecurity companies tend to have far greater 
capabilities, and fewer restrictions, than the DOD or DHS.
    A smart policy will refocus American cyber defense so the private 
sector is the supported command, not the supporting command.
    Ms. Rosen. What additional efforts should we be making to protect 
against hacking? Do you see an obvious action that Congress should 
take?
    Mr. Healey. My top practical step for Congress to take is to 
require DOD and DHS to conduct a review of how the United States has 
responded to past incidents.
    In a structured way, they should look at two of each major kind of 
attack (countering a denial of service attack, for example, and kicking 
out foreign spies) to determine which organizations and people took 
which decisions, based on what information and which led to what 
effectiveness in mitigating the attack.
    The results of this review will suggest how the U.S. government 
could have better responded better in the past and suggest how to do 
better in future. This should then be the basis of a new cyber incident 
response plan.
    I suspect an accurate review would show that most of the decisions 
and actions which have mattered were taken by the private sector, not 
just the companies under attack, but the software vendors (e.g. 
Microsoft), network service providers (e.g. AT&T), and cybersecurity 
companies (e.g. Symantec). Other critical actions are likely to be 
taken by small non-profits who are critical to sharing and response, 
such as ISACs (information sharing and analysis centers).
    Congress could develop grant programs to help these non-profits, if 
it proves they could be doing more critical work. This would be far 
cheaper to the public purse than hiring more DOD bureaucrats. It would 
also allow far better oversight, as Congress could better see just 
where the executive branch is succeeding and failing.

                                  [all]
</pre></body></html>
